MEMORANDUM

Date:

To:           Mary F. Santonastasso, Director
              Division of Institution and Award Support

Thru:         Deborah H. Cureton
              Associate Inspector General for Audit

From:         Jannifer Jenkins
              Senior Audit Manager

Subject:      Audit Report No. OIG-08-1-011
              WestEd

Attached is the final audit report, prepared by Mayer Hoffman McCann P.C., an
independent public accounting firm, on the audit of NSF award number ESI-0119790
awarded to WestEd. The audit covers NSF-funded costs claimed from September 1,
2001 to June 30, 2007, aggregating to approximately $11.05 million of NSF direct funded
costs and $1.25 million of claimed cost sharing. NSF requested and OIG agreed to
conduct an audit at WestEd because of findings in prior A-133 and other NSF audits that
identified that the policies and procedures WestEd used were inadequate to monitor and
track award activity for subawards, cost sharing, and participant support.

Overall the auditors determined that except for $1,011,602 or nine percent of the $11.05
million total claimed costs on WestEd’s Schedule of Award Costs are allowable,
allocable, and reasonable for the award. The majority of the questioned costs, $988,806,
resulted because the auditors questioned all of WestEd's claimed cost sharing due to
inadequate documentation to support the quantity, value, and purpose of the third party
cost share. The $988,806 questioned represented costs exceeding NSF’s proportionate
share of the total project costs. Of the remaining $22,796 in questioned costs, $15,130
was questioned subaward costs; $7,562 was questioned indirect costs; and $104 was
questioned travel costs.

The auditors identified four significant compliance and internal control deficiencies in
WestEd’s financial management practice that contributed to the questioned costs, of
which we consider the first to be a material weakness. Additionally, the first three of
these control weaknesses were previously identified and reported in NSF OIG and A-133
single audit reports. Given the systemic and continuing nature of these compliance and
internal control deficiencies it is likely that NSF’s eleven other current awards amounting
to $13.6 million, as well as future awards are impacted by the same weaknesses. While
WestEd indicates that it made progress to develop improved control policies and
procedures, implementation of and adherence to those policies and procedures is needed
to prevent continuing recurrence of these problems. Specifically:

   •   WestEd did not adequately monitor subaward costs charged to NSF Award No.
       ESI-0119790, which included four subawards amounting to $6.7 million or 61%
       of the total costs charged to the NSF award. This occurred because WestEd did
       not adequately implement the policies and procedures that it established based on
       recommendations made in prior audit reports. Therefore, WestEd’s internal
       controls provide no assurance that the expenditures incurred and claimed are
       accurate, valid, allowable and adequately documented. In order to validate the
       subaward charges, the auditors performed additional audit tests at 3 of the 4
       subawardees. At 2 subawardees, the auditors found overstated labor and indirect
       costs and misclassified travel costs; as a result, they questioned $15,130 of $2.3
       million in subaward costs that were tested. One of WestEd’s subawardees over-
       stated costs by $9,403 because of over-allocated labor costs, non-payroll
       expenses, and misclassified travel costs. Another subawardee incorrectly
       calculated indirect costs resulting in $5,727 of over-stated costs. Required routine
       subaward monitoring could prevent or identify any additional unallowable
       claimed subaward costs.

   •   Although WestEd has developed and been implementing its cost sharing policy
       and procedures, it was unable to quantify and support the value of the $1.25
       million claimed as cost share from a third party. As a result, the auditors
       questioned $988,806 of NSF-funded costs, representing NSF’s proportionate
       share of the total award costs.

   •   Although WestEd has developed formal policy and separate account codes to
       more consistently distinguish different categories of costs, a breakdown in
       communication between program and accounting personnel hindered its
       effectiveness. As a result, $24,250 of consultant costs and $28,257 of travel costs
       that should have been classified as participant support costs were erroneously
       recorded as consultant costs and travel costs. In addition, $9,419 of subaward
       costs was miscoded as other direct costs. Since WestEd applied the indirect cost
       rate to these misclassified costs and no indirect costs are allowable for participant
       support costs and the amount exceeding the first $25,000 claimed by a
       subawardee, the auditors questioned the associated indirect costs claimed in a
       total amount of $7,562.

   •   WestEd has policies and procedures to review all travel expenses claimed and to
       exclude the costs of alcoholic beverages from federal awards. However, the
       reviewer did not always exclude the sales tax associated with costs of alcoholic


                                            2
       beverages from the costs claimed to NSF. As a result, we questioned xxx of sales
       tax associated with the costs of alcoholic beverages and xxx of the associated
       indirect costs.

To address these compliance and internal control deficiencies, we recommend that the
Director of NSF’s Division of Institutional and Award Support (DIAS) direct WestEd to
(1a) strictly adhere to its subawardee fiscal monitoring plan and procedures; (1b) apply
its recently revised subawardee monitoring procedures to all current and active
subawards; (1c) ensure that all corrections made to expenses on WestEd’s subawardee’s
accounting systems were accurately reported to WestEd and NSF; (2) strengthen its
procedures to improve the communication between its x                                    x
Xxxxxxxxxx in order to ensure participant support costs, subaward costs, and all other
costs are properly coded and classified in its accounting system; (3) amend its cost
sharing policy to require written documentation quantifying and determining the value
and purpose of third party contributions received as cost sharing in accordance with
Federal requirements and; (4) explicitly state in its policy and procedures that sales tax
associated with alcohol beverages should be excluded from all federal awards.

Although WestEd’s response to the draft report on July 14, 2008, indicated that it
disagreed with the findings, WestEd nevertheless stated that it will provide continuing
updates and training in policy communication, monitoring and cross training among
xxxxxxxxxxxxxxxxxxx personnel, and it will add instructions for exclusion of sales tax
associated with alcoholic beverages from federal claims for reimbursement. In addition,
except for the $988,806 of NSF-funded costs, which represents costs exceeding NSF’s
proportionate share of the total project costs as a result of $1.25 million of cost sharing
being questioned, WestEd accepted all the costs that the auditors questioned.

We consider the findings in this report to be significant and believe that these deficiencies
could have a significant impact on WestEd’s ability to efficiently and effectively
administer funds in a manner that is consistent with NSF and other federal laws and
regulations, if left uncorrected. Therefore, we recommend that NSF institute a flag in the
awards system for WestEd until NSF is able to negotiate acceptable corrective actions
with WestEd to resolve all the audit findings and recommendations.

Please coordinate with our office during the resolution period to develop a mutually
agreeable resolution of the audit findings. Also, the findings should not be closed until
NSF determines that all recommendations have been adequately addressed and the
proposed corrective actions have been satisfactorily implemented.

We are providing a copy of this memorandum to the Division Director and Program
Director in Education & Human Resources (EHR) and the Director of the Division of
Grants and Agreements (DGA). The responsibility for audit resolution rests with the
Division of Institution and Award Support, Cost Analysis and Audit Resolution Branch
(CAAR). Accordingly, we ask that no action be taken concerning the report’s findings
without first consulting CAAR at 703-292-8244.




                                             3
OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

   •   Reviewed Mayer Hoffman McCann P.C.’s approach and planning of the audit;

   •   Evaluated the qualifications and independence of the auditors;

   •   Monitored the progress of the audit at key points;

   •   Coordinated periodic meetings with Mayer Hoffman McCann P.C. and NSF
       officials, as necessary, to discuss audit progress, findings, and recommendations;

   •   Reviewed the audit report prepared by Mayer Hoffman McCann P.C. to ensure
       compliance with Government Auditing Standards and the NSF Audit Guide; and

   •   Coordinated issuance of the audit report.

Mayer Hoffman McCann P.C. is responsible for the attached auditor’s report on the
WestEd and the conclusions expressed in the report. We do not express any opinion on
the Schedules of Award Cost, internal control, or conclusions on compliance with laws
and regulations.

We thank your staff for the assistance that was extended to the auditors during this audit.
If you have any questions regarding this report, please contact me at (703) 292-4996.


Attachment

cc: Joan Ferrini-Mundy, Division Director, EHR/DRL
    Valentine Kass, Program Director, EHR/DRL
    Karen Tiplady, Director, DGA




                                             4
                      WESTED
4665 LAMPSON AVENUE, LOS ALAMITOS, CALIFORNIA 90720

   NATIONAL SCIENCE FOUNDATION AWARD NUMBER
                   ESI-0119790



    FINANCIAL AUDIT OF FINANCIAL SCHEDULES AND
          INDEPENDENT AUDITORS’ REPORT
         SEPTEMBER 1, 2001 TO JUNE 30, 2007




                             MAYER HOFFMAN McCANN P.C.
                             Conrad Government Services Division
                             Certified Public Accountants
                             2301 Dupont Drive, Suite 200
                             Irvine, California 92612
             FOR OFFICAL USE ONLY
          REPORT RELEASE RESTRICTION



          REPORT RELEASE RESTRICTION

    THIS REPORT MAY NOT BE RELEASED TO ANYONE
 OUTSIDE THE NATIONAL SCIENCE FOUNDATION WITHOUT
 ADVANCE APPROVAL BY THE NSF OFFICE OF INSPECTOR
GENERAL. THE ONLY EXCEPTION IS AN AGENCY INVOLVED
 IN NEGOTIATING OR ADMINISTERING NSF AWARDS. THE
 INFORMATION IN THIS REPORT SHOULD BE TREATED AS
  CONFIDENTIAL AND MAY NOT BE USED FOR PURPOSES
   OTHER THAN ORIGINALLY INTENDED WITHOUT PRIOR
  CONCURRENCE FROM THE NSF OFFICE OF INSPECTOR
                      GENERAL
                              EXECUTIVE SUMMARY

An audit was performed on $11.05 million in costs claimed and $1.25 million in cost sharing
claimed on the Federal Cash Transactions Reports (FCTR) submitted to NSF by WestEd on
NSF award number ESI-0119790. NSF requested and OIG agreed to conduct an audit at
WestEd because of findings in prior A-133 and other audits that identified that the policies and
procedures WestEd used were inadequate to monitor and track award activity for subawards,
cost sharing, and participant support. Except for $1,011,602 (9% of $11.05 million in total
claimed costs) in questioned travel costs, subaward costs, indirect costs and NSF-funded costs
related to a cost sharing shortfall described below, we determined that the costs claimed by
WestEd under NSF award number ESI-0119790 appear fairly stated and are allowable,
allocable and reasonable for the NSF award.

Specifically for $22,796 of the $1,011,602, we questioned a total of $15,130 of subaward costs.
xxx of WestEd’s subawardees over-stated costs by xxxxxx because of over-allocated labor
costs, non-payroll expenses, and misclassified travel costs. Another subawardee incorrectly
calculated indirect costs resulting in xxxxxx of over-stated costs. In addition, $7,562 of indirect
costs that WestEd had charged NSF was questioned due to misclassified consultant, travel and
other direct costs that should have been classified either as participant support or subaward
costs, which are not subject to indirect costs. The remaining $104 was questioned because of
travel costs that were claimed that included sales tax associated with the costs of alcoholic
beverages.

In addition, we questioned all $1.25 million of WestEd's claimed cost sharing due to insufficient
supporting documentation, which resulted in an additional $988,806 of questioned NSF-funded
costs, raising the total questioned NSF funded costs to $1,011,602. NSF funded $12.6 million
(91 percent) of the total budgeted project costs, and WestEd was to provide cost share for the
remaining $1.25 million (9 percent). Since WestEd was unable to adequately support that it had
met the required $1.25 million of cost sharing, we questioned $988,806 representing costs
exceeding NSF’s proportionate share of the total project costs.

We noted four significant compliance and internal control deficiencies in WestEd’s financial
management practice that contributed to these questioned costs, of which the first one is
material. Specifically:

   •   WestEd did not adequately monitor subaward costs charged to NSF Award No. ESI-
       0119790, which included four subawards amounting to $6.7 million or 61% of the total
       costs charged to the NSF award. This occurred because WestEd did not adequately
       implement the policies and procedures that it established based on recommendations
       made in prior audit reports. Therefore, WestEd’s internal controls provide no assurance
       that the expenditures incurred and claimed are accurate, valid, allowable and adequately
       documented. In order to validate the subaward charges, we performed additional audit
       tests of $2,361,217 or 36.11% out of $6,530,245 of costs claimed at 3 of the 4
       subawardees. At 2 subawardees, we found overstated labor and indirect costs and
       misclassified travel costs; as a result, we questioned $15,130 in subaward costs.
       Required routine subaward monitoring could prevent or identify any additional
       unallowable claimed subaward costs.

   •   Although WestEd has developed formal policy and separate account codes to more
       consistently distinguish different categories of costs, a breakdown in communication
       between xxxxxxxxxxxxxxxxxxxxxx personnel hindered its effectiveness. As a result,
       $24,250 of consultant costs and $28,257 of travel costs that should have been classified
       as participant support costs were erroneously recorded as consultant costs and travel
       costs. In addition, xxxxxx of subaward costs was miscoded as other direct costs. Since
       WestEd applied the indirect cost rate to these misclassified costs and no indirect costs
       are allowable for participant support costs and the amount exceeding the first $25,000
       claimed by a subawardee, we questioned the associated indirect costs claimed in a total
       amount of xxxxxx.

   •   Although WestEd has developed and been implementing its cost sharing policy and
       procedures, it was unable to obtain detailed documentation necessary to quantify and
       determine the value and purpose of its cost sharing contributed by a third party.
       Therefore, we questioned the entire $1,250,000 of cost sharing claimed by WestEd,
       which resulted in our questioning $988,806 of NSF-funded costs, which represents
       costs exceeding NSF’s proportionate share of the total project costs.

   •   WestEd has policies and procedures to review all travel expenses claimed and to
       exclude the costs of alcoholic beverages from federal awards. However, the reviewer
       did not always exclude the sales tax associated with costs of alcoholic beverages from
       the costs claimed to NSF. As a result, we questioned xxx of sales tax associated with
       the costs of alcoholic beverages and xxx of the associated indirect costs.

WestEd’s failure to address these compliance and internal control deficiencies could result in
similar problems on 11 other remaining active NSF awards amounting to $13,659,462 or future
NSF awards.

To address these compliance and internal control deficiencies, we recommend that the Director
of NSF’s Division of Institutional and Award Support (DIAS) direct WestEd to (1a) strictly adhere
to its subawardee fiscal monitoring plan and procedures; (1b) apply its recently revised
subawardee monitoring procedures to all current and active subawards; (1c) ensure that all
corrections made to expenses on WestEd’s subawardee’s accounting systems were accurately
reported to WestEd and NSF; (2) strengthen its procedures to improve the communication
between its program personnel and accounting personnel in order to ensure participant support
costs, subaward costs, and all other costs are properly coded and classified in its accounting
system; (3) amend its cost sharing policy to require written documentation quantifying and
determining the value and purpose of third party contributions received as cost sharing in
accordance with Federal requirements and; (4) explicitly state in its policy and procedures that
sale tax associated with alcohol beverages should be excluded from all federal awards.

WestEd responded to the draft report on July 14, 2008. In its response, WestEd disagreed with
the findings that (1) it inadequately performed fiscal monitoring of its subawardees, (2) it did not
effectively implement its policies and procedures to ensure that project costs are properly
classified, (3) it did not maintain sufficient documentation to support its cost sharing
expenditures, and (4) OMB Circular A-122 disallows sales tax associated with alcoholic
beverages. WestEd stated that its subaward monitoring system is fully effective and does not
require improvement. WestEd also stated that its current system for documenting cost sharing
complies with applicable regulations and any amendment to the current system would be
redundant, unduly costly to itself, and of no further internal control benefit. However, WestEd
indicated that it will provide continuing updates and training in policy communication, monitoring
and cross training among xxxxxxx           xxxxxxxxxxx personnel, and will add instructions for
exclusion of sales tax associated with alcoholic beverages from federal claims for
reimbursement. In addition, except for the $988,806 of NSF-funded costs, which represents
costs exceeding NSF’s proportionate share of the total project costs as a result of $1,250,000 of
cost sharing being questioned, WestEd stated that it accepted all the costs that we questioned.

The findings in this report should not be closed until NSF has determined that all the
recommendations have been adequately addressed and the proposed corrective actions have
been implemented. WestEd’s response has been included in its entirety in Appendix A.

For a complete discussion of audit findings, refer to the Independent Auditors’ Report on
Internal Control Over Financial Reporting and on Compliance and Other Matters Based on an
Audit of Financial Schedules Performed in Accordance with Government Auditing Standards.
                                                                WESTED


                                                     TABLE OF CONTENTS

                                                                                                                                      Page

Executive Summary:

Table of Contents:

Introduction:
    Background ..................................................................................................................................   1
    Audit Objectives, Scope and Methodology ..................................................................................                      2

Internal Controls and Compliance:
    Independent Auditors’ Report on Internal Control over Financial Reporting and on
      Compliance and Other Matters Based on an Audit of Financial Schedules Performed in
      Accordance with Government Auditing Standards ....................................................................                             3

Financial Schedules and Supplemental Information:
   Independent Auditors’ Report on Financial Schedules ................................................................                             17
   Schedule A – Schedule of Award Costs (Award No. ESI-0119790) ............................................                                        19
   Schedule B – Schedule of Questioned Costs ..............................................................................                         20
   Schedule C – Summary Schedule of Award Audited and Audit Results......................................                                           25
   Notes to Financial Schedules ......................................................................................................              27

Appendices
  Appendix A – Awardee’s Comments to Report
  Appendix B – Prior Audit Findings
  Appendix C – Exit Conference
INTRODUCTION
BACKGROUND

We audited funds awarded by the National Science Foundation (NSF) to WestEd under award
number ESI-0119790 for the period September 1, 2001 to June 30, 2007. WestEd, as a
Federal awardee, is required to follow the cost principles specified in Office of Management and
Budget (OMB) Circular A-122, Cost Principles for Non-Profit Organizations, and the Federal
administrative requirements contained in 2 CFR 215 - Uniform Administrative Requirements for
Grants and Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations (OMB Circular A-110 has been incorporated into 2 CFR 215).

WestEd was established on December 1, 1995 as a public agency for the joint exercise of
powers between the Far West Regional Laboratory for Educational Research and Development
(FWL) and the Southwest Regional Laboratory for Educational Research Development (SWRL).
WestEd is involved in education research, development and service dedicated to improving
education and other opportunities for children, youth and adults. In addition to its work across
the nation, WestEd serves as the regional education laboratory for Arizona, California, Nevada
and Utah, with a designated national focus on education assessment.

NSF requested and OIG agreed to conduct an audit at WestEd because of findings in a prior FY
2004 A-133 audit and other prior audits that identified that the policies and procedures WestEd
used were inadequate to monitor and track award activity for subawards, cost sharing and
participant support costs. In FY 2006, WestEd received a total of $30.86 million in funding from
NSF, including both funds directly received from NSF ($28.5 million from 17 grants) and pass-
through funding from other entities. Its largest award, award number ESI-0119790, was chosen
for audit because it was valued at over $12 million of which almost $8 million (63%) was
budgeted for 4 subawards with academic and non-academic organizations, where WestEd is
the principal management entity to ensure that the programmatic objectives are accomplished
and the financial award terms and conditions are met.

Description of the NSF award we audited is as follows:

Award ESI-0119790 – Center for Assessment and Evaluation of Student Learning
(CAESL). NSF awarded ESI-0119790 to WestEd for the period September 1, 2001 to August
31, 2008 in the amount of $12,683,403, with a cost sharing requirement of $1,250,000. CAESL
aims at improving student learning and understanding in science focusing on effective
assessment. CAESL is a collaboration involving the Center for Research on Evaluation,
Standards, and Student Testing (CRESST)/University of California-Los Angeles, the School of
Education at Stanford University, The Graduate School of Education at the University of
California-Berkeley, Lawrence Hall of Science (LHS), the Concord Consortium, and WestEd.
The project’s efforts are focused on the following objectives:

   •   Enhance the capacity of prospective assessment and evaluation of professionals
       through graduate programs;
   •   Develop and field test a model for enhancing the formative and summative assessment
       capabilities of practicing science teachers through professional development and
       developing teachers’ capacity to lead assessment efforts in their districts;
   •   Enhance the formative and summative assessment capabilities of pre-service teachers;
   •   Conduct applied research and development on formative and summative assessment
       practices and technology-intensive assessment environment, and use findings from the
       research to generate new products; and

                                               1
   •   Enhance the capacity of parents, school administrators, policy makers, and the public to
       make decisions and support the appropriate educational roles of different kinds of
       assessment and evaluation.

The CAESL project under the NSF award comprises five objectives or strands, which include (1)
Graduate Programs for Assessment and Evaluation Professionals; (2) Professional
Development; (3) Development of Pre-service Science Teachers; (4) Applied Research, and (5)
Public Understanding. Each objective or strand consists of different activities specifically
designed and developed to achieve the objective. Each of the four subawardees works with
WestEd on more than one, but not all, strands. The four subawardees claimed approximately
$6.7 million or 61% of the total costs charged to the award.

WestEd is responsible for overall management of the project and also leads the professional
development for practicing teachers. Cumulative disbursements for award number ESI-
0119790 reported to NSF through June 30, 2007 were $11,046,274. Cost share claimed solely
by WestEd totaled $1,250,000.



AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of our audit were to:

   1. Determine if WestEd’s Schedule of Award Costs (Schedule A) presents fairly, in all
      material respects, costs claimed on the Federal Cash Transactions Reports (FCTR) –
      Federal Share of Net Disbursements, and if the costs claimed, including cost sharing,
      are in conformity with Federal and NSF award terms and conditions.

   2. Identify matters concerning instances of noncompliance with laws, regulations, and the
      provisions of the award agreements pertaining to NSF awards, and weaknesses in
      WestEd’s internal control over financial reporting that could have a direct and material
      effect on the Schedule of Award Costs (Schedule A) and WestEd’s ability to properly
      administer, account for, and monitor its NSF awards.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government
Auditing Standards (2007 Revision) issued by the Comptroller General of the United States, and
the guidance provided in the National Science Foundation Audit Guide (August 2007), as
applicable. These standards and the NSF Audit Guide require that we plan and perform the
audit to obtain reasonable assurance about whether amounts claimed to NSF as presented in
the Schedule of Award Costs (Schedule A) are free of material misstatements. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
Schedule of Award Costs. An audit also includes assessing the accounting principles used and
the significant estimates made by WestEd, as well as evaluating the overall financial schedule
presentation. We believe that our audit provides a reasonable basis for our opinion.




                                              2
INTERNAL CONTROLS AND COMPLIANCE
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


                  INDEPENDENT AUDITORS’ REPORT ON
  INTERNAL CONTROL OVER FINANCIAL REPORTING AND ON COMPLIANCE AND
 OTHER MATTERS BASED ON AN AUDIT OF FINANCIAL SCHEDULES PERFORMED IN
          ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

We have audited costs claimed as presented in the Schedule of Award Costs (Schedule A),
which summarizes financial reports submitted by WestEd to the National Science Foundation
(NSF) and claimed cost sharing for the award and period listed below and have issued our
report thereon dated December 3, 2007.

            Award Number                    Award Period                    Audit Period

            ESI – 0119790                09/01/01 – 08/31/08            09/01/01 – 06/30/07


We conducted our audit of the Schedule of Award Costs as presented in Schedule A in
accordance with auditing standards generally accepted in the United States of America, the
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States (2007 revision), and the guidance provided in the
National Science Foundation Audit Guide (August 2007), as applicable.


INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the Schedule of Award Costs (Schedule A) for the
period September 1, 2001 to June 30, 2007, we considered WestEd’s internal control over
financial reporting as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the financial schedule, but not for the purpose of expressing an
opinion on the effectiveness of WestEd’s internal control over financial reporting. Accordingly,
we do not express an opinion on the effectiveness of WestEd’s internal control over financial
reporting.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses. However, as discussed below, we identified certain deficiencies in internal control
over financial reporting that we consider to be significant deficiencies.



                                               3
A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect misstatements in a timely basis. A significant deficiency is a control
deficiency, or combination of control deficiencies, that adversely affects the entity’s ability to
initiate, authorize, record, process, or report financial data reliably in accordance with generally
accepted accounting principles such that there is more than a remote likelihood that a
misstatement of WestEd’s financial schedule that is more than inconsequential will not be
prevented or detected by WestEd’s internal control. We consider the deficiencies described
below as Finding Nos. 1 and 2, to be significant deficiencies in internal control over financial
reporting.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial schedules
will not be prevented or detected by WestEd’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and would not necessarily identify all deficiencies
in the internal control that might be significant deficiencies and, accordingly, would not
necessarily disclose all significant deficiencies that are also considered to be material
weaknesses. However, we believe that Finding No. 1 is also a material weakness.


COMPLIANCE WITH LAWS AND REGULATIONS AND OTHER MATTERS

As part of obtaining reasonable assurance about whether WestEd’s financial schedule is free of
material misstatement, we performed tests of WestEd’s compliance with certain provisions of
applicable laws, regulations, and NSF award terms and conditions, noncompliance with which
could have a direct and material effect on the determination of financial schedule amounts.
However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion. The results of our tests of
compliance disclosed four instances of noncompliance that are required to be reported under
Government Auditing Standards and the National Science Foundation Audit Guide and are
described in Finding Nos. 1 through 4 below.

WestEd’s response to the finding identified in our audit is described after the finding and is
included in its entirety in Appendix A. We did not audit WestEd’s response and, accordingly, we
express no opinion on it.



FINDINGS AND RECOMMENDATIONS

Finding 1. Lack of Adequate Fiscal Monitoring of Subawardees

WestEd did not adequately monitor subaward costs charged to NSF Award No. ESI-0119790,
which included four subawards amounting to $6.7 million or 61% of the total costs charged to
the NSF award. This occurred because WestEd did not adequately implement the policies and
procedures that it established based on recommendations made in prior audit reports.
Therefore, WestEd’s internal controls over subaward costs provide no assurance that the
expenditures incurred and claimed are accurate, valid, allowable and adequately documented.
In order to validate the subaward charges, we performed additional audit tests of $2,361,217 or

                                                 4
36.11% out of $6,530,245 of costs claimed at 3 of the 4 subawardees. At 2 subawardees, we
found overstated labor and indirect costs and misclassified travel costs and as a result, we
questioned $15,130 in subaward costs. Required routine subaward monitoring could prevent or
identify any additional unallowable claimed subaward costs.

The CAESL project under the NSF award comprises five objectives or strands, which include (1)
Graduate Programs for Assessment and Evaluation Professionals; (2) Professional
Development; (3) Development of Pre-service Science Teachers; (4) Applied Research, and (5)
Public Understanding. Each objective or strand consists of different activities specifically
designed and developed to achieve the objective. Each of the four subawardees works with
WestEd on more than one, but not all, strands.

2 CFR 215, Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations (OMB Circular A-110), Subpart C,
§215.51(a), states: “Recipients are responsible for managing and monitoring each project,
program, subaward, function or activity supported by the award. Recipients shall monitor
subawards to ensure subrecipients have met the audit requirements as delineated in § 215.26.”

Further, OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations, Subpart D, §400(d.3) – Pass-Through Entity Responsibilities, requires that the
pass-through entity monitor the activities of its subrecipients as necessary to ensure that
Federal awards are used for authorized purposes in compliance with laws, regulations, and the
provisions of contracts or grant agreements and that performance goals are achieved.

The management letter issued by WestEd’s independent auditor for fiscal year ended 11/30/02
indicated that WestEd did not have policy and procedures in place to identify subrecipients for
monitoring. As such, WestEd developed its subaward fiscal monitoring policy and procedures in
fiscal year 2003. However, fiscal monitoring at that time was limited to a review of subawardee
invoices for mathematical correctness and budgetary compliance. Subsequently, WestEd’s
independent auditor recommended, in the management letter for fiscal year ended 11/30/04,
that WestEd enhance its procedures for managing sub-recipients by including additional
monitoring procedures. In fiscal year 2005, WestEd finalized and partially implemented its
subaward fiscal monitoring policy and procedures.

Under WestEd’s policy effective in fiscal year 2005, the xxxxxx xxxxxx vxxxxxx is the key person
responsible for performing subaward fiscal monitoring. Before a contract or agreement is
signed with a subawardee, the potential subawardee is required to complete a Pre-Award
Questionnaire and attach its Single Audit Report and audited financial statements. The xxxxxx
vxxxxx            x is responsible for reviewing the Pre-Award Questionnaire and performing an
initial risk assessment on the subawardee. This Initial Review and Risk Assessment are
performed whenever a new contract is signed or extended even if the subaward has other
existing contracts with WestEd.

Based on the information provided by the subawardee on the Pre-Award Questionnaire, Single
Audit Report and audited financial statements, the xxxxxx xxxxxx vxxxxxx ranks the risk of the
subaward as “low”, “medium” or “high” on the Sub-Award Initial Review & Risk Assessment
Form. If the risk of a subaward is assessed as “low”, no further action or activity will be
performed. If the risk of a subaward is assessed as “medium”, the xxxxxx xxxxxx vxxxxxx will
perform a desk review as needed and determine if an on-site review is required. If the risk is
“high”, the xxxxxx xxxxxx vxxx will perform an on-site visit to the subaward at least once a year.


                                                5
On an annual basis, a letter is sent by the xxxxxx xxxxxx vxxxxx to each subawardee requesting
the subawardee to certify if it has completed an OMB-A133 Single Audit, if required, and if there
are any material weaknesses, instances of non-compliance and findings related to the
subaward from WestEd. If yes, the xxxxxx xxxxxx vxxxxx will obtain and review the Single Audit
report and follow-up with the subawardee to ensure that any material weaknesses, instances of
non-compliance or findings related to the subaward from WestEd are properly and timely
resolved.

The fiscal monitoring policy and procedures of WestEd described above should have been
applied to all existing contracts between WestEd and its subawards also. However, we found
that WestEd’s fiscal monitoring activities were still limited to reviews of subawardee invoices for
mathematical accuracy and budgetary compliance, and annual review of subawardee
certification on Single Audit results. No initial reviews or risk assessments were performed as
prescribed in WestEd’s policy on the four subawardees under the NSF award. Also, no desk
reviews or site visits were conducted at the subawardees.

In not obtaining any documentary evidence to substantiate the amounts claimed by its
subawardees, WestEd failed to ensure that expenditures claimed were reasonable, allocable,
allowable and sufficiently supported in accordance with NSF and OMB Circular requirements.

Because of this internal control deficiency, we performed additional on-site procedures at three
of WestEd’s subawardees to satisfy ourselves that the subaward costs charged by WestEd to
the NSF grant were accurate, allowable and allocable. As a result of our on-site procedures, we
questioned $ xxxxxx xxxof the $2,361,217 of subaward costs that we tested. Costs claimed by
subawardee University of California – Los Angeles (UCLA) were over-stated by $ xxxx because
of over-allocation of labor costs and non-payroll expenses, as well as over-claimed indirect
costs resulting from misclassification of travel costs. University of California – Berkeley (UCB),
another subawardee, did not use the correct indirect cost rates to calculate the indirect costs it
claimed to WestEd and as a result over-claimed $ xxxxxx xxof indirect costs.

The following is a description of the exceptions we noted during our on-site visit at UCLA and
UCB.

University of California – Los Angeles (UCLA)

A. Over-allocation of labor costs and non-payroll related expenses

Labor costs claimed by UCLA were overstated because certain salaries and fringe benefits
claimed were not sufficiently supported. UCLA allocated labor costs based on labor time efforts.
During our on-site procedures, we noted that the percentages of labor costs for certain salaries
and fringe benefits charged to the subaward were higher than the percentages of time efforts as
reflected on the employee timesheets. As a result, we questioned the unsupported portion of
labor costs ($xxxxxx) and the associated indirect costs ($xxxxxx) for a total of $ xxxxxx.

In addition, certain computer hardware and printer costs charged to the subaward were not
sufficiently supported. These items were purchased for the Principal Investigator (PI). UCLA
allocated these costs based on labor time efforts of the PI. However, the percentages of these
purchases charged to the subaward (100%) were higher than the percentages of time efforts
(25%) as reflected on the PI’s Personnel Activity Report. As a result, the unsupported portion of
computer hardware and printer costs ($xxxxxx) and the associated indirect costs ($xxxxxx) are
questioned for a total of $ xxxxxx.

                                                6
UCLA’s Graduate School of Education and Information Studies (GSEIS) has a Business
Manager to review and reconcile all expenses claimed to the subaward on a monthly basis.
However, these errors were not identified during the review process.

B. Over-claimed indirect costs due to misclassification of travel costs

Indirect costs charged to the subaward were overstated because certain travel expenses were
erroneously classified under the Graduate Programs for Assessment and Evaluation
Professionals (GAEP) strand of the subaward and a higher indirect cost rate of xxx was applied
to these expenses. These transactions should have been classified under the Applied
Research strand of the subaward and applied with a lower indirect cost rate of x xx. As a
result, we questioned the over-charged indirect costs in a total amount of xxx xxx .

Effective September 1, 2003, the subaward of UCLA with WestEd focuses on two strands: (1)
GAEP strand and (2) Applied Research strand. Since the nature of activities for each strand of
the CAESL project is different, each strand has its own approved indirect cost rate in
accordance with UCLA’s Colleges and Universities Rate Agreement. The GAEP strand follows
the on-campus instruction indirect cost rate of xxx and the Applied Research strand follows the
off-campus organized research indirect cost rate of xxx.

WestEd       instructed  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
strands in September 2003. However, UCLA’s Office of Contract and Grant Administration
(OCGA) did not receive the formal notification until April 20, 2004, (as noted by the execution of
the revised version of Modification 4). The new cost centers for the two strands were then
established in the UCLA's financial system in June 2004. While GSEIS began direct-charging
the two strands at that time, it also xxxxxxxxxxxxxxxxxxxxxxxxx incurred during the period
September 2003 through June 2004 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
established cost centers of the two strands. A determination process was necessary to ensure
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx(GAEP strand or Applied
Research strand). The process was completed in October 2004 and in November 2004 the
actual transfers were entered into the system. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxx, certain travel cost transactions of xxxxxxxxxxxxxxxxxxxxxxxxx,
which should have been recorded under the research strand, were erroneously recorded in the
instruction strand.

The above exceptions in sections A and B were identified by UCLA prior to our on-site visit and
UCLA has made the necessary adjustments in its accounting system to correct the errors in
November 2007. We also reviewed the detailed general ledger of the GAEP strand and noted
that all misclassified xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxhad been properly identified and
our test of other travel costs claimed in the subsequent period did not find additional errors.
However, the amount of expenditures claimed to WestEd as of June 30, 2007 was still
overstated by xxxxxx, since these errors in costs were included in the costs claimed to WestEd.
If WestEd had adequately implemented its subaward fiscal monitoring, these exceptions could
have been prevented or identified in a timelier manner.




                                                 7
                                                             Questioned Costs
               Description                  Direct Costs     Indirect Costs          Total
 Over-allocated salaries and fringe
 benefits                                       $ xxxxxx              xxxxxx             xxxxxx
 Over-allocated computer and printer
 costs                                            xxxxxx              xxxxxx             xxxxxx
 Errors in classification of travel costs         xxxxxx              xxxxxx             xxxxxx
                    Total                       $ xxxxxx              xxxxxx             xxxxxx


University of California – Berkeley (UCB)

A. Over-claimed indirect costs due to errors in uses of indirect cost rates

During our on-site visit, we recalculated the allowable indirect costs for the entire audit period
based on UCB’s general ledgers for the subaward and approved indirect cost rates and
compared the result to the total indirect costs claimed by UCB. We found that indirect costs
xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx
xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx
xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx

UCB’s subaward with WestEd is operated by UCB’s Graduate School of Education (GSE) and
Lawrence Hall of Science (LHS). xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx in accordance
with the Colleges and Universities Rate Agreement. UCB’s Extramural Funds Accounting (EFA)
is responsible for setting up and updating indirect cost rates in the financial accounting system
for all departments.

When the indirect cost rate for GSE was reduced from xxxxxx xxxxxx xxxxxx xxxxxx from March
2003, the responsible EFA award analyst failed to update the rate in the financial accounting
system. As a result, the incorrect indirect cost rate was xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx
xxxxxx xxxxxx xxxxxx until July 2005.

In addition, when the xxxxxx xxxxxx input the new indirect cost rates for fiscal 2003-2004 in the
financial accounting system in July 2003, the xxxxxx xxxxxxxxxxxxxxxxxx xxxxxx xxxxxx xxxxxx
xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx xxxxxx . As a result, the financial
accounting system automatically xxxxxx xxxxxxxxxxxxxxxxxx xxxxxx xxxxxx xxxxxx to the
subaward during the period July 2003 through October 2003.

It is the responsibility of the individual departments to monitor indirect costs monthly. However,
both xxxxxxxxxxxx xxxxxx xxxxxx failed to timely identify the errors and notify xxxxx to correct
them. The conditions were later discovered and adjustments were made to correct the total
indirect costs charged to the subaward. However, indirect costs claimed to the subaward were
still over-stated by xxxxxx. As a result of our audit, xxxxxxsubsequently corrected the
overstatement on its accounting records on November 30, 2007.

WestEd is aware of the subawardee fiscal monitoring requirements of OMB Circulars A-133 and
2 CFR 215. However, due to inadequate resources and manpower, WestEd was unable to fully
and effectively implement its subaward fiscal monitoring policy and procedures. WestEd relies



                                                 8
on the certifications of the subawardees to certify the accuracy of their expenses, since they are
all large and highly reputable educational institutions.

WestEd’s lack of adequate subawardee fiscal monitoring could lead to NSF funds being used
for purposes other than those intended under WestEd’s NSF awards. Thus, lack of adequate
subawardee fiscal monitoring increases the risk that some of the subaward costs claimed by
WestEd may be unallowable, unreasonable or not allocable to the NSF awards.


Recommendation 1:

We recommend that NSF’s Director of the Division of Institution and Award Support (DIAS)
ensure that WestEd a) strictly adhere to its subawardee fiscal monitoring plan and procedures;
b) apply its recently revised subawardee monitoring procedures to all current and active
subawards, and c) ensure that all corrections made to expenses on ULCA’s and UCB’s
accounting systems for WestEd’s subawards are accurately reported to WestEd and NSF.


Awardee’s Comments

WestEd does not concur with the finding and WestEd indicated that it has implemented
adequate policies and procedures to monitor its subawardees. Nonetheless, WestEd agrees
with the questioned costs of xxxxx x and indicated that the questioned amount has been
adjusted in WestEd’s books.

WestEd indicated that its policies and procedures on subaward monitoring were designed to
comply in all material respects with OMB Circular A-133 guidelines and these procedures allow
management and staff to prevent or detect misstatement in a timely basis. WestEd also
indicated that three of the four subawardees under the NSF award are large educational
institutions with excellent reputations. The remaining subawardee was a for-profit company with
a small subaward amount. Therefore, WestEd decided that all the subawardees were low risk
auditees and neither a desk review nor a site visit was necessary.

WestEd also stated that the auditors did not disclose systemic problems but merely brought to
WestEd’s attention a few, isolated errors resulting in questioned costs of xxxxx x, which is less
than xxxxx of the total award amount. Furthermore, WestEd noted that more than half of these
questioned costs were identified by subawardee staff (UCLA) before the audit and were
furnished to the auditors during the on-site visit.

WestEd noted that its subawardee monitoring procedures include not only fiscal monitoring
performed by xxxxxx xxxxxx xxxxxx xxxxxx personnel but also the programmatic monitoring.
WestEd also noted that the Principal Investigator and the Project Manager of the project
oversee the progress of ongoing work, review completed tasks, and also review and approve
subawardees’ invoices before processing for payment to ensure a high level of assurance that
the subawardees abide by the terms of the subaward agreement and payments are made in
accordance with the terms of the subaward agreement.

WestEd believes it has satisfactorily performed both fiscal and programmatic monitoring
procedures on its subawardees based on adopted and implemented policies and procedures
and, therefore, disagrees that the finding is a material weakness due to a significant deficiency
in internal control over financial reporting. WestEd believes that the subaward monitoring

                                                9
system is fully effective and does not require improvement. WestEd also believes that it strictly
adheres to its subawardee fiscal monitoring plan and procedures.

Auditor’s Response

We concur with WestEd that the design of its policies and procedures on subaward monitoring
complies with OMB Circular A-133 guidelines. However, we do not agree that the procedures in
place allow its management and staff to prevent or detect misstatements in a timely manner and
that WestEd has satisfactorily implemented these policies and procedures.

Although parts of the questioned costs were identified by the subawardee (UCLA) and were
furnished to us during the audit, it is hard to determine if the subawardee performed the internal
review of its expenditures claimed because it had been informed of the audit. Furthermore, the
errors at UCLA and UCB occurred in 2003 and 2004 but these errors were not corrected in the
subawardees’ accounting system until November 2007. If WestEd had adequately implemented
its subaward fiscal monitoring, these exceptions could have been prevented or identified in a
timelier manner. In addition, no documentation was provided by WestEd during our audit to
evidence that any risk assessment had been performed over the subawardees of the grant.

This report finding should not be closed until NSF determines that the proposed corrective
actions have been satisfactorily implemented.


Finding 2. Misclassification of Transactions

WestEd did not effectively implement its policy and procedures to ensure that project costs are
properly classified in its accounting system due to a breakdown in communication between
program and accounting personnel. During our review of travel costs and consultant costs, we
found 159 transactions ($24,250 of consultant costs and $28,257 of travel costs) that were
stipends and travel costs related to program participants and, therefore, should have been
classified as participant support costs. We also found that one subaward invoice of $9,419 was
miscoded as other direct costs, instead of subaward costs. Since WestEd applied the indirect
cost rate to these misclassified costs and no indirect costs are allowable for participant support
costs or the amount exceeding the first $25,000 claimed by a subawardee, we questioned the
associated indirect costs claimed in a total amount of $7,562 ($6,366 for misclassified
participant support costs and $1,196 for misclassified subaward costs).

NSF Grant General Conditions (GC-1), Article 7 – Participant Support Costs, states that
participant support costs are direct costs for items such as stipends or subsistence allowances,
travel allowances, and registration fees paid to or on behalf of participants or trainees (but not
employees) in connection with meetings, conferences, symposia or training projects (see also
GPM Section 618.) It also states that the awardee organization must account for participant
support costs separately. Additionally, NSF Grant Policy Manual, Section 633.2 states that no
indirect costs may be charged against participant support costs and that NSF generally provides
no amounts for indirect costs for participant support.

According to the Indirect Cost Rate Agreement between WestEd and the U.S. Department of
Education, indirect cost base is defined as "total direct costs less items of equipment, alterations
and renovations, stipends and the portion of each competitive bid sub-award in excess of
$25,000 regardless of the period covered by that subaward.”


                                                10
During our review of travel and consultant costs, we found numerous transactions that were
actually stipends and travel costs related to program participants. Upon further review of the
detail general ledgers of these accounts, we identified $24,250 of consultant costs and $28,257
of travel costs that should have been classified as participant support costs but were
erroneously recorded as consultant costs and travel costs. The misclassification of participant
support costs as consulting costs and travel costs in a total amount of $52,507 resulted in
WestEd charging its NSF grant for xxxxxx of unallowable indirect costs for participant support.

In addition, we found one invoice submitted by a subawardee in the amount of xxxxxx was
miscoded as other direct costs. As a result, the indirect cost base to which WestEd applied the
indirect cost rate to this subawardee exceeded the first $25,000 claimed by the subawardee as
prescribed in WestEd’s Indirect Cost Rate Agreement. Therefore, xxxxxx of the associated
indirect costs is not allowable.

While WestEd has developed a formal policy to distinguish expenses among different
categories according to the approved budget items and established separate account codes to
record costs of different categories, there is a breakdown in communication between xxxxxx
xxxxxx xxxxxxxxxxxx personnel that hinders the policy from being properly implemented. The
accounting department uses information on payment requests received from program personnel
to code costs in the accounting system. However, when there is no information or the wrong
information is included on payment requests, the accounting department is prone to miscode
the transactions into the incorrect cost categories. The accounting system automatically applied
the indirect cost rate to the misclassified costs.

WestEd’s failure to properly track, record, and claim participant support costs limited its ability to
ensure that participant support funds were not spent on other costs without prior NSF approval.
In addition, WestEd’s failure to properly classify costs into the correct cost category limited its
ability to claim indirect costs accurately.


Recommendation 2:

We recommend that NSF’s Director of DIAS ensure that WestEd strengthen its procedures
governing communication between xxxxxx xxxxxx xxxxxx xxx personnel in order to ensure that
transactions are properly coded and classified in its accounting system. Program personnel
should be required to explain sufficiently the nature of the costs on each payment request
submitted to the accounting department to avoid miscoding errors. The accounting department
should not accept any payment requests without a detailed explanation for the expenses to be
paid.


Awardee’s Comments

WestEd strongly disagrees with the finding that it did not effectively implement its policies and
procedures to ensure that project costs are properly classified in its accounting system due to a
breakdown in communication between program and accounting personnel. Nevertheless,
WestEd stated that it accepts the resulting questioned costs amounting to xxxxxx

WestEd indicated that the misclassified travel and consultant costs were costs incurred for
participating in annual CAESL conferences. WestEd noted that this was an isolated case of
misclassification and not an indication of systemic problems in internal control. WestEd

                                                 11
believes its internal controls are adequate, and the project financial reports have not been
materially misstated.

WestEd noted that it conducts continuing updates and training in policy communication,
monitoring and cross training among accounting and program personnel. WestEd believes
these continuing updates and trainings are sufficient to strengthen a system that exhibits an
already high degree of compliance. WestEd noted that the necessary adjustments had been
recorded in WestEd’s book of accounts while the audit was still in progress.


Auditor’s Response

WestEd’s comments are responsive to the finding and recommendation. However, we do not
concur with WestEd that the finding is an isolated case of misclassification and not an indication
of a systemic problem in internal control. Based on our review of WestEd’s accounting records
during our audit, we noted that the misclassification of travel and consultant costs occurred in
multiple project years. In a prior grant audit of other NSF awards, a similar finding was also
noted. We identified the cause of the finding based on our interview with WestEd personnel and
review of accounting records. If cost information had been clearly stated on the payment
requests, miscoding of project costs could have been avoided.

This report finding should not be closed until NSF determines that the proposed corrective
actions have been satisfactorily implemented.


Finding 3. Insufficient Documentation to Support Cost Sharing Expenditures

WestEd did not maintain adequate documentation to support cost sharing expenditures claimed
by a third party contributor for the NSF award because it did not request the contributor to
provide detailed documentation to support the amount claimed and did not have a policy to
require quantifying and determining the value and purpose of third party contributions. As a
result, WestEd failed to meet NSF’s award records requirement for any of the $1.25 million in
cost sharing expenses claimed. We, therefore, questioned the entire $1.25 million of cost
sharing claimed by WestEd which resulted in our questioning $988,806 of NSF-funded costs,
which represents costs exceeding NSF’s proportionate share of the total project costs.

NSF Grant General Conditions (GC-1), Article 22 – Cost Sharing and Cost Sharing Records,
Section C, states: “The awardee must maintain records of all project costs that are claimed by
the awardee as cost sharing as well as records of cost to be paid by the Government. Such
records are subject to audit. Acceptable forms of cost sharing contributions are those which
meet the criteria identified in 2 CFR 215, Subpart C, §215.23 (OMB Circular A-110). Unless
otherwise specified in the award, approval is given to include unrecovered indirect costs (also
known as facilities and administrative costs for colleges and universities) as part of cost sharing
or matching contributions. If the awardee’s cost participation includes in-kind contributions, the
basis for determining the valuation for volunteer services and donated property must be
documented.”

NSF’s Grant Policy Manual (GPM) Section 333.6, Cost Sharing Records and Reports, and 2
CFR 215, Subpart C, § 215.23, require grantees to maintain records of all costs claimed as cost
sharing, and states that those records are subject to audit. These regulations also state that
cost-sharing expenses must be verifiable from the recipient’s records and must not be included

                                                12
as contributions to any other Federal award or funded by any other Federal award. 2 CFR 215,
Subpart C, § 215.23, also states that, to be accepted as part of the recipient's cost sharing,
expenditures must be necessary and reasonable for proper and efficient accomplishment of
project or program objectives and allowable under applicable cost principles.

Although WestEd has developed and been implementing its cost sharing policy and procedures,
it was unable to obtain detailed documentation necessary to support its cost sharing contributed
by a third party. The only documentation WestEd maintained to support the cost sharing
contributions made by xxxxxx xxxxxxxxxxx . were annual letters sent by xxxxxx stating that it
contributed technical support and services worth approximately $250,000 in each grant year.
These letters briefly presented the types of support and services provided, which included (1)
design and development of xxxxxx xxxxxx             xxxxxx ; (2) technical support for content
development and the xxxxxx xxxxxx xxxxxx ; (3) continued hosting and dissemination of
program content on the xxxxx xxxxxx xxxxxx xxxxxx x; (4) planning and consultation between
xxxxxx xxxxxxxxxxx xxxxxx x and the program team; (5) training and support for the program
team for publishing on the Apple Learning Interchange, and (6) support for annual program
conference. We noted that the types of support and services described in the letters are
consistent with those on the grant budget proposal and appear to be in support of the NSF
project. However, there were no other details, such as number of hours and value of services,
to verify the amounts on the letters as reasonable. We attempted to obtain supporting
documentation but, according to Apple Computer, Inc., it does not maintain any documentation
nor track the amount of contribution it provided to WestEd. Since no other documentation was
available, we were unable to determine if the reported cost sharing amount of $1,250,000 is
reasonable and accurate.

According to the PI, the support provided by xxxxxxxxxxxx xxxxxx . (technical support, training,
and resources) is necessary to the success of the program. xxxxxxxxxxxx xxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxx xxxxxxxxxxxxxxxxxx xxxxxxxxxxxxxxxxxx xxxxxxxxxxxxxxxxxx xxxxxx
xxxxxxxxxxxx xxxxxxxxxxxxxxxxxx xxxxxx Apple's willingness to contribute to the program) by
requiring xxxxxxxxxxxxxxxxxxx. to provide details of its contributions.

NSF funded $12.6 million (91 percent) of the total budgeted project costs, and WestEd was to
provide cost share for the remaining $1.25 million (9 percent). Since WestEd did not maintain
sufficient documentation to support cost sharing expenditures claimed, there is no assurance
that they are accurate, allowable, allocable or reasonable in accordance with applicable Federal
and NSF regulations. We, therefore, questioned the entire $1.25 million of cost sharing claimed
by WestEd, which resulted in us questioning $988,806 of NSF-funded costs representing costs
exceeding NSF’s proportionate share of the total project costs. As stated in NSF’s GPM
Section 333.3, a failure to provide the level of cost sharing reflected in the approved award may
result in disallowance of award costs. See Schedule B, Note B-4, for computation of the
questioned award costs resulting from WestEd’s cost sharing shortfall.


Recommendation 3:

We recommend that NSF’s Director of DIAS ensure that WestEd amend its current cost sharing
policy to require written documentation quantifying and determining the value and purpose of
third party contributions. WestEd should obtain the basis for determining the valuation of the
contributed personal services, material, and equipment from all third party donors.



                                               13
Awardee’s Comments

WestEd strongly disagrees with the finding, the recommendations and the questioned costs of
$988,806. WestEd believes that the auditor misapplied OMB Circular A-133 and A-110
regulations with respect to obtaining detailed documentation to support cost sharing contributed
by a third party because the cost sharing contributor, xxxxxxxxxxxx xxxxxx., is a publicly traded
for-profit company, and qualifies as a vendor that is not subject to the criteria identified in 2 CFR
215, Subpart C, §215.23 (OMB Circular A-110). WestEd believes the auditor applied the criteria
as if xxxxxxxxxxxx xxxxxx. were classified as a subrecipient.

WestEd noted that in the original proposal to NSF, it described that xxxxxxxx. had committed to
provide CAESL with, “technical consultation in the planning and design of technology tools;
travel and meeting support; a mobile computer training lab; a webhosting and webcasting
environment; and dissemination.” WestEd noted that xxxxxxxx developed the technology and
made it available to CAESL free of charge as documented in a 2003 agreement for
WestEd/CAESL. WestEd also noted that in addition to this major technological contribution,
over the course of the grant Apple, Inc. provided ongoing technical support and advice
(explained in greater detail in Attachment A). WestEd believes that, based on the observable
results that are corroborated by the NSF program officer, the value of xxxxxxxxxxxx xxxx xx
cost share contribution is justified, properly documented, and contemporaneously approved by
NSF management. In addition, WestEd noted that it has an additional $1,118,194 in cost
sharing contributions that would be in the form of time offered free of charge from the faculties
at the three education institutions serving as subawardees. WestEd noted that because it was
informed by the NSF program officer that WestEd could rely solely on cost share contribution
from xxxxxxxxxxxx xxxxxx., WestEd did not document any of the $1,118,194 contributions that
took place over the life of the grant. Should it be necessary, WestEd indicated that it is willing to
retroactively obtain documentations for these contributions. WestEd strongly contends that the
auditor’s basis for the questioned cost is factually inaccurate.

WestEd believes that the current system for documenting cost sharing complies with applicable
regulations and, therefore, any amendment to these procedures would be redundant, unduly
costly to WestEd, and of no further internal control benefit.


Auditor’s Response

We agree that OMB Circular A-133 and 2 CFR 215, Subpart C, §215.23 (OMB Circular A-110)
do not apply to xxxxxxxxxxxx xxxx., which is a for-profit company. However, we do not agree
that NSF Grant General Conditions, NSF’s Grant Policy Manual and 2 CFR 215, Subpart C,
§215.23 (OMB Circular A-110) are applied incorrectly in this finding. The finding is based on the
fact that WestEd, as a recipient of NSF funds, is subject to the criteria regarding cost sharing
identified in both NSF provisions and 2 CFR 215, Subpart C, §215.23 (OMB Circular A-110).
xxxxxxxxxxxx xxxxxx. is neither considered as a subrecipient nor a vendor, since it did not
receive any federal funds under the award. The fact remains that, although the cost share
contributions were provided by a for-profit third party entity, it is the responsibility of WestEd, not
the third party contributor, to obtain and maintain sufficient documentation to support that the
amount of cost share that WestEd claimed is allowable, reasonable, allocable and properly
supported.

This report finding should not be closed until NSF determines that the proposed corrective
actions have been satisfactorily implemented.

                                                  14
Finding 4. Unallowable Sales Tax Associated with Alcoholic Beverages

During our audit, we found that sales tax associated with the costs of alcoholic beverages were
not always removed from the total costs claimed. As a result, xxxxof sales tax associated with
costs of alcoholic beverages and xxxx of the associated indirect costs (a total amount of $104)
is questioned.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B, Paragraph 2
states: “Costs of alcoholic beverages are unallowable.”

WestEd has policies and procedures to review all travel expenses claimed and to exclude the
costs of alcoholic beverages from federal awards. However, while the cost of alcoholic
beverages was excluded, the reviewer did not always exclude the related sales tax but allowed
it to be charged to the grant.


Recommendation 4:

We recommend that NSF’s Director of DIAS ensure that WestEd's policy and procedures
explicitly state that all costs, including sale tax, associated with alcoholic beverages are
unallowable and therefore not to be charged to a federal award.


Awardee’s Comments

WestEd believes that OMB Circular A-122 does not disallow sales tax. WestEd stated that the
Circular is silent on the issue of sales tax on alcoholic beverages. In addition, WestEd noted
that the incidents discovered by the auditor are insignificant and pursuant to OMB Circular A-
133, there does not appear to be either a reportable internal control or a compliance deviation
with this finding. Nonetheless, WestEd indicated that the questioned costs of $104 have been
adjusted in WestEd’s books of account. Furthermore, WestEd stated that it will add an
instruction to its related procedure and supervision documents to explicitly state and test for the
exclusion of sales tax on alcoholic beverages from federal claims for reimbursement.


Auditor’s Response

WestEd’s comments are responsive to the finding and recommendation. However, we do not
concur with WestEd that the Circular is silent on the issue of sales tax on alcoholic beverages
because the sales tax associated with alcohol beverages is considered part of the costs of
alcoholic beverages.

This report finding should not be closed until NSF determines that the proposed corrective
actions have been satisfactorily implemented.




                                                15
This report is intended solely for the information and use of WestEd’s management, the National
Science Foundation, WestEd’s Federal Cognizant Audit Agency, the Office of Management and
Budget, and the Congress of the United States and is not intended to be and should not be
used by anyone other than those specified parties.




Mayer Hoffman McCann P.C.
Conrad Government Services Division
Irvine, California
December 3, 2007




                                              16
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


            INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by WestEd to the National Science Foundation (NSF) on the
Federal Cash Transactions Reports (FCTRs) for the NSF award listed below. In addition, we
audited the amount of cost sharing claimed on the NSF award. The FCTRs, as presented in the
Schedule of Award Costs (Schedule A), are the responsibility of WestEd’s management. Our
responsibility is to express an opinion on the Schedule of Award Costs (Schedule A) based on
our audit.

            Award Number                     Award Period                     Audit Period

             ESI-0119790                  09/01/01 – 08/31/08             09/01/01 – 06/30/07


We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States (2007 revision), and
the guidance provided in the National Science Foundation Audit Guide (August 2007), as
applicable. These standards and the National Science Foundation Audit Guide, require that we
plan and perform the audit to obtain reasonable assurance that the amounts claimed to NSF as
presented in the Schedule of Award Costs (Schedule A) are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in
the Schedule of Award Costs (Schedule A). An audit also includes assessing the accounting
principles used and the significant estimates made by WestEd’s management, as well as
evaluating the overall financial schedule presentation. We believe our audit provides a
reasonable basis for our opinion. The Schedule of Questioned Costs (Schedule B) explains the
$1,011,602 (9.16%) of total claimed NSF funds that we have questioned as to their allowability
under the award agreement. These questioned costs include unallowable travel, subaward and
indirect costs.

Questioned costs are (1) costs for which documentation exists to show that recorded costs were
expended in violation of laws, regulations or specific award conditions, (2) costs that require
additional support by the awardee, or (3) costs that require interpretation of allowability by the
National Science Foundation – Division of Institution and Award Support (DIAS). NSF will make

                                               17
the final determination of cost allowability. The ultimate outcome of this determination cannot
presently be determined. Accordingly, no adjustment has been made to costs claimed for any
potential disallowance by NSF.

In our opinion, except for the $1,011,602 of questioned NSF-funded costs, the Schedule of
Award Costs (Schedule A) referred to above presents fairly, in all material respects, the costs
claimed on the FCTRs for the period September 1, 2001 to June 30, 2007 in conformity with the
provisions of the National Science Foundation Audit Guide, NSF Grant Policy Manual, terms
and conditions of the NSF award and on the basis of accounting described in the Notes to the
Financial Schedule, which is a comprehensive basis of accounting other than generally
accepted accounting principles. This schedule is not intended to be a complete presentation of
financial position of WestEd in conformity with accounting principles generally accepted in the
United States of America.

In accordance with Government Auditing Standards, and guidance provided in the National
Science Foundation Audit Guide, we have also issued a report dated December 3, 2007, on our
consideration of WestEd’s internal control over financial reporting and our tests of WestEd’s
compliance with certain provisions of laws, regulations, and NSF award terms and conditions
and other matters. The purpose of that report is to describe the scope of our testing over
internal control over financial reporting and compliance and the results of that testing, and not to
provide an opinion on the internal control over financial reporting or on compliance. That report
is an integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.

This report is intended solely for the information and use of WestEd’s management, NSF,
WestEd’s Federal cognizant agency, Office of Management and Budget, and the Congress of
the United States of America, and is not intended to be, and should not be used by anyone
other than these specified parties.




Mayer Hoffman McCann P.C.
Conrad Government Services Division
Irvine, California
December 3, 2007




                                                18
                                                                                                                                    SCHEDULE A
                                                                   WESTED
                                             National Science Foundation Award Number ESI-0119790
                                                             Schedule of Award Costs
                                                        September 1, 2001 - June 30, 2007
                                                                     Interim



                                                                                                       Questioned
                                                                                       Claimed           NSF-
                                  Approved        Claimed       Reclassification      Costs After       Funded             Schedule
       Cost Category               Budget         Costs (A)        of Costs         Reclassification     Costs             Reference
Direct costs:
   Salaries and wages         xxxxxxxx          xxxxxxxx        xxxxxxxx            xxxxxxxx           xxxxxxxx
   Fringe benefits            xxxxxxxx          xxxxxxxx        xxxxxxxx            xxxxxxxx           xxxxxxxx
   Travel                     xxxxxxxx          xxxxxxxx        xxxxxxxx            xxxxxxxx           xxxxxxxx       B, Note B-1 and B2
   Participant support        xxxxxxxx          xxxxxxxx        xxxxxxxx            xxxxxxxx           xxxxxxxx       B, Note B-2
   Other direct costs:        xxxxxxxx          xxxxxxxx        xxxxxxxx            xxxxxxxx           xxxxxxxx
      Material and supplies   xxxxxxxx          xxxxxxxx        xxxxxxxx            xxxxxxxx           xxxxxxxx
      Publication             xxxxxxxx          xxxxxxxx        xxxxxxxx            xxxxxxxx           xxxxxxxx
      Consulting              xxxxxxxx          xxxxxxxx        xxxxxxxx            xxxxxxxx           xxxxxxxx       B, Note B-2
      Computer services       xxxxxxxx          xxxxxxxx        xxxxxxxx            xxxxxxxx           xxxxxxxx
      Subaward                xxxxxxxx          xxxxxxxx        xxxxxxxx            xxxxxxxx           xxxxxxxx       B, Note B-2 and B3
      Other direct costs      xxxxxxxx          xxxxxxxx        xxxxxxxx            xxxxxxxx           xxxxxxxx       B, Note B-2

        Total direct costs        12,115,370     10,579,490                     -      10,579,490           15,223

Indirect costs                      568,033         466,784                     -         466,784            7,573    B, Note B-1, B-2 and B-5

        Total                 $ 12,683,403       11,046,274                     -      11,046,274           22,796

Cost sharing                  $    1,250,000      1,250,000                     -       1,250,000         988,806     B, Note B-4



  (A) - The total claimed costs agrees with the total expenditures reported by WestEd on the Federal Cash Transaction Report -
  Federal Share of Net Disbursements as of the quarter ended June 30, 2007. Claimed costs reported above are based on the
  Summary of Claimed Costs prepared by WestEd from WestEd's books of accounts.




                                                 See accompanying Notes to Financial Schedules

                                                                           19
                                                                              SCHEDULE B


                                       WESTED
                      National Science Foundation Award Number
                                     ESI-0119790
                            Schedule of Questioned Costs
                       From September 1, 2001 to June 30, 2007


Note B-1   Travel Costs and Indirect Costs
           During our audit, we found certain instances where sales tax associated with the
           costs of alcoholic beverages were charged to the NSF award in the travel cost
           category. WestEd has policies and procedures to review all travel expenses
           claimed and to exclude the costs of alcoholic beverages from federal awards.
           However, the reviewer did not always include the sales tax associated with costs
           of alcoholic beverages. As a result, $93 of sales tax associated with costs of
           alcoholic beverages and $11 of the associated indirect costs for a total amount of
           $104 is being questioned. (See Finding and Recommendation No. 4 in the
           Independent Auditors’ Report on Internal Control over Financial Reporting and on
           Compliance and Other Matters.)


Note B-2   Travel Costs, Consultant Costs, Subaward Costs, Other Direct Costs and
           Indirect Costs
           WestEd did not effectively implement its policy and procedures to ensure that
           transactions are properly classified in the accounting system. Although WestEd
           has developed a formal policy to distinguish different categories of costs, and
           uses separate account codes to record participant costs, there was a breakdown
           in communication between WestEd’s program personnel and accounting
           personnel that hindered the policy from being properly implemented.

           During our review of travel costs and consultant costs, we found numerous
           transactions that are actually stipends and travel costs related to program
           participants. Upon further review of the detail general ledgers of these accounts,
           we identified $24,250 of consultant costs and $28,257 of travel costs that should
           have been classified as participant support costs but were erroneously recorded
           as consultant costs and travel costs. The misclassification of participant support
           costs totaling $52,507 resulted in WestEd charging its NSF grant for $6,366 of
           unallowable indirect costs for participant support.

           In addition, we found one subawardee invoice in the amount of $9,419 that was
           miscoded as other direct costs. As a result, the indirect cost base to which
           WestEd applied the indirect cost rate to this subawardee exceeded the first
           $25,000 claimed by the subawardee as prescribed in WestEd’s Indirect Cost
           Rate Agreement. Therefore, $1,196 of the associated indirect costs is not
           allowable. (See Finding and Recommendation No. 2 in the Independent
           Auditors’ Report on Internal Control Over Financial Reporting and on Compliance
           and Other Matters.)



                                           20
                                                                              SCHEDULE B


                                       WESTED
                      National Science Foundation Award Number
                                     ESI-0119790
                            Schedule of Questioned Costs
                       From September 1, 2001 to June 30, 2007

                                      (Continued)


Note B-3   Subaward Costs
           WestEd did not perform adequate fiscal monitoring, in accordance with its
           established policy and procedures, on the subaward costs it charged to the NSF
           award due to limited resources and manpower. Because of this internal control
           deficiency, we performed additional on-site procedures at three of WestEd’s
           subawardees to satisfy ourselves that the subaward costs charged by WestEd to
           the NSF grant were accurate, allowable and allocable. We found that WestEd
           over-claimed $15,130 of subaward costs to the NSF award. Costs claimed by
           one of WestEd’s subawardees, University of California – Los Angeles (UCLA),
           were over-stated by $9,403 because of an over-allocation of labor costs and non-
           payroll expenses, as well as over-claimed indirect costs resulted from
           misclassification of travel costs. Another subawardee of WestEd, University of
           California – Berkeley (UCB) used incorrect indirect cost rates to compute indirect
           costs which resulted in $5,727 of incorrectly calculated indirect costs. These
           over-claimed costs from the two subawardees were passed on to NSF through
           the “Subaward” cost category claimed by WestEd.               (See Finding and
           Recommendation No. 1 in the Independent Auditors’ Report on Internal Control
           Over Financial Reporting and on Compliance and Other Matters.)




                                           21
                                                                            SCHEDULE B


                                      WESTED
                     National Science Foundation Award Number
                                    ESI-0119790
                           Schedule of Questioned Costs
                      From September 1, 2001 to June 30, 2007

                                     (Continued)


Note B-4   Cost Sharing

           WestEd did not maintain sufficient documentation to support its cost sharing
           expenditures claimed to the NSF award. Although WestEd has developed and
           been implementing its cost sharing policy and procedures, WestEd experienced
           difficulties in obtaining the necessary detail documentation to support its cost
           sharing contributed by a third party for this NSF grant. The only documentation
           maintained by WestEd to support the cost sharing contributions is the letters
           received from xxxxxxxxxxxxxxxxxxx. annually stating that xxxxxxxxxxxxxxxxxxx.
           contributed technical support and services worth approximately $250,000 for
           each grant year. WestEd did not maintain any other documentation or record to
           track and quantify the contributions received from xxxxxxxxxxxxxxxxxxx. We
           also contacted xxxxxxxxxxxxxxxxxxx. and attempted to obtain any supporting
           documentation but xxxxxxxxxxxxxxxxxxx. replied that it does not maintain any
           documentation nor track the amount of contribution it provided to WestEd. We
           questioned the $1,250,000 of cost sharing amount reported by WestEd because
           we were unable to determine if the reported amount is reasonable and accurate.
           (See Finding and Recommendation No. 3 in the Independent Auditors’ Report on
           Internal Control over Financial Reporting and on Compliance and Other Matters)

           In accordance with NSF’s GPM Section 333.3, grantee must cost share at the
           level of cost sharing included in the award. Because of the questioned cost
           sharing expenditures, WestEd did not cost share allowable costs at the level
           required in the award. Using the guidelines contained in NSF’s Auditing for Cost
           Sharing and Matching on NSF Grant Awards, we calculated excess funding NSF
           provided as a result of inadequate cost sharing as follows:




                                          22
                                                                             SCHEDULE B


                                      WESTED
                     National Science Foundation Award Number
                                    ESI-0119790
                           Schedule of Questioned Costs
                      From September 1, 2001 to June 30, 2007

                                     (Continued)


Note B-4   Cost Sharing, (continued)

            Maximum Percentage of NSF Funding to Total Project Costs

            NSF Shared Budgeted                                               $ 12,683,403
            WestEd Cost-sharing Required                                         1,250,000
             Total Project Costs                                              $ 13,933,403

            Maximum NSF Share
            (NSF Share - $12,683,403/Total Project Costs - $13,933,403)             91.03%


            Audit Results

            Claimed NSF Costs minus Questioned NSF Costs
            ($11,046,274 - $22,796)                                           $ 11,023,478
            Claimed Cost-sharing minus Questioned Cost Sharing
            ($1,250,000 - $1,250,000)                                                    -
              Adjusted Project Costs                                          $ 11,023,478


            Questioned Costs Due to Cost Sharing Shortfall

            Adjusted Project Costs                                            $ 11,023,478
            Less: Maximum NSF Share (91.03% of $11,023,478)                     10,034,672
              Questioned Costs                                                $    988,806

            Note:   The amount of questioned costs due to the cost sharing shortfall will
                    ultimately depend on the amount of questioned direct and indirect
                    costs sustained which will be determined by NSF.




                                          23
                                                                              SCHEDULE B


                                        WESTED
                       National Science Foundation Award Number
                                      ESI-0119790
                             Schedule of Questioned Costs
                        From September 1, 2001 to June 30, 2007

                                       (Continued)


Note B-5   Indirect Costs

           The table below summarizes the questioned indirect costs as described in Notes
           B-1 through B-2.

                                                                              Questioned
            Note Number                      Description                    Indirect Costs
                             Sales tax associated with costs of
                 B-1         alcoholic beverages                                   xxxxxxxx
                             Misclassification of participant support
                 B-2         costs                                                xxxxxxxx
                 B-2         Misclassification of subaward costs                  xxxxxxxx
                                                                   Total:         $ 7,573




                                            24
                                                                            SCHEDULE C


                                    WESTED
                Summary Schedule of Award Audited and Audit Results
                    From September 1, 2001 to June 30, 2007


Summary of Awards Audited

    Award Number       Award Period                Audit Period
   ESI-0119790       09/01/01 – 08/31/08        09/01/01 – 06/30/07

    Award Number      Type of Award                       Award Description
     ESI-0119790          Grant            The award is a five-year project funded by NSF
                                           to improve student learning and understanding
                                           in science focusing on effective assessment. It
                                           is a collaboration involving the Center for
                                           Research on Evaluation, Standards, and
                                           Student Testing (CRESST)/University of
                                           California-Los Angeles, the School of
                                           Education at Stanford University, The Graduate
                                           School of Education at the University of
                                           California-Berkeley, Lawrence Hall of Science
                                           (LHS), the Concord Consortium, and WestEd.



Summary of Questioned and Unsupported Costs by Award

                                        Claimed         Questioned      Unsupported
    Award Number    Award Budget         Costs            Costs            Costs
   ESI-0119790      $ 12,683,403       11,046,274           22,796               -
         Total      $ 12,683,403       11,046,274           22,796               -

                                                        Questioned
                                           Claimed      NSF-Funded      Unsupported
    Cost Sharing    Award Budget            Costs         Costs            Costs
   ESI-0119790      $ 1,250,000            1,250,000       988,806      1,250,000
         Total      $ 1,250,000            1,250,000       988,806      1,250,000




                                           25
                                                                                       SCHEDULE C


                                        WESTED
                    Summary Schedule of Award Audited and Audit Results
                        From September 1, 2001 to June 30, 2007

                                           (Continued)


Summary of Questioned Cost by Explanation

                                   Questioned
            Category                 Costs               Internal Controls       Non-Compliance
   Salaries and Wages              $        -                   N/A                   N/A
   Fringe Benefits                          -                   N/A                   N/A
   Equipment                                -                   N/A                   N/A
   Travel                                  93                   No                    Yes
   Participant Support                      -                   N/A                   N/A
   Material & Supplies                      -                   N/A                   N/A
   Publication                              -                   N/A                   N/A
   Consulting                               -                   N/A                   N/A
   Computer Services                        -                   N/A                   N/A
   Subcontractors                     15,130                    Yes                   Yes
   Other Direct Costs                       -                   N/A                   N/A
   Indirect Costs                       7,573                   Yes                   Yes
   Cost Sharing Shortfall            988,806                    No                    Yes


Summary of Non-Compliance and Internal Control Findings

                                                                      Amount of          Amount of
                                                                      Questioned          Claimed/
                             Non-Compliance             Material or     Costs          Incurred Costs
         Findings           or Internal Control         Reportable     Effected           Effected
   Lack of Adequate          Non-Compliance              Material        $ 15,130          $ 6,689,979
   Fiscal Monitoring of     and Internal Control        Weakness
   Subawardees

   Misclassification of      Non-Compliance             Reportable             7,562        8,020,012
   Transactions             and Internal Control

   Insufficient              Non-Compliance             Reportable           988,806        1,250,000
   Documentation to
   Support Cost
   Sharing
   Expenditures

   Unallowable Sales         Non-Compliance             Reportable              104           162,570
   Tax Associated with
   Alcoholic Beverages

                                                   26
                                           WESTED
                                 Notes to Financial Schedules
                           From September 1, 2001 to June 30, 2007


Note 1: Summary of Significant Accounting Policies

        Accounting Basis
        The accompanying financial schedule has been prepared in conformity with National
        Science Foundation (NSF) instructions, which are based on a comprehensive basis of
        accounting other than generally accepted accounting principles. Schedule A has been
        prepared by WestEd from the Federal Cash Transactions Reports (FCTRs) submitted
        to NSF and WestEd’s accounting records. The basis of accounting utilized in
        preparation of these reports differs from generally accepted accounting principles. The
        following information summarizes these differences:

          A. Equity
              Under the terms of the award, all funds not expended according to the award
              agreement and budget at the end of the award period are to be returned to NSF.
              Therefore, the awardee does not maintain any equity in the award and any
              excess cash received from NSF over final expenditures is due back to NSF.

          B. Inventory
              Minor materials and supplies are charged to expense during the period of
              purchase. As a result, no inventory is recognized for these items in the financial
              schedule.

        Income Taxes

        WestEd was established pursuant to the provisions of Title 1, Division 7, Chapter 5,
        Article I of the California Government Code (the Joint Powers Act) as public agency for
        the joint exercise of powers between the Far West Regional Laboratory for Educational
        Research and Development and the Southwest Regional Laboratory for Educational
        Research and Development. The entity is exempt from federal income taxes per
        Section 115(1) of the Internal Revenue Code.

        The departure from generally accepted accounting principles allows NSF to properly
        monitor and track actual expenditures incurred by the Grantee. The departure does
        not constitute a material weakness in internal controls.




                                             27
                                         WESTED
                               Notes to Financial Schedules
                         From September 1, 2001 to June 30, 2007

                                       (Continued)


Note 2: NSF Cost Sharing and Matching
        The following represents the cost share requirement and actual cost share as of June
        30, 2007:
                               Cost Share         Actual Cost Share
           Award Number          Required             Provided            Over/(Under)
           ESI-0119790         $ 1,250,000         $ 1,250,000*       $             -

         * Because WestEd did not maintain sufficient documentation to support the reported
         cost sharing expenditures, we questioned the entire reported amount.


Note 3: Indirect Cost Rates

                                 Indirect Cost
              Fiscal Year            Rate                              Base

                 00-01             xxxxxxxx         Modified Total Direct Costs (Total direct
                 01-02             xxxxxxxx         salaries, fringe benefits, materials,
                 02-03             xxxxxxxx         supplies, services, travel, and sub-awards)
                 03-04             xxxxxxxx         (up to the first $25,000).
                 04-05             xxxxxxxx
                 05-06             xxxxxxxx
                 06-07             xxxxxxxx




                                             28
APPENDIX A - AUDITEE’S COMMENTS TO
              REPORT
APPENDIX B – PRIOR AUDIT FINDINGS
                                                                                   APPENDIX B
PRIOR AUDIT FINDINGS

Audit Report on NSF grants (REC-9814803, ESI-9618990 and ESI-9550063) issued by Conrad
and Associates L.L.P. for the period 10/01/95 through 12/31/99 identified a finding for
inconsistent treatment of participant costs. In our current audit, we also identified costs that
should have been classified as participant support costs but were erroneously classified in other
cost categories and the indirect cost rate was incorrectly applied to these misclassified costs.
We found that WestEd has developed a formal policy to distinguish expenses between
participant support costs and non-participant support costs, and uses separate account codes to
record participant costs. However, there was a breakdown in communication between
WestEd’s program xxxxxxxxxxxxxxxx xxxxxxxx personnel that hindered the policy from being
effectively implemented.

A management letter issued by WestEd’s independent auditor for fiscal year ended 11/30/02
annual audit indicated that WestEd needed to develop policy and procedures to identify sub-
recipients for monitoring. In its management letter for the fiscal year ended 11/30/04 annual
audit, WestEd’s independent auditor also recommended that WestEd enhance its procedures
for managing its sub-recipients by including monitoring procedures. We found that although
WestEd developed its subaward fiscal monitoring policy and procedures in fiscal year 2003, it
did not start implementing them until fiscal year 2005. Also, WestEd has only partially
implemented its established subaward fiscal monitoring policy and procedures due to
inadequate resources and manpower. We noted that WestEd’s fiscal monitoring activities are
limited to reviews of subawardee invoices for mathematical accuracy and budgetary
compliance, and an annual review of subawardee certification on Single Audit results. No initial
reviews and risk assessments, as prescribed in WestEd’s policy, were performed on the four
subawardees under the NSF project being audited. Also, no desk reviews or site visits were
conducted at the subawardees.

The management letter issued by WestEd’s independent auditor for fiscal year ended 11/30/04
also recommended that WestEd enhance its procedures for maintaining cost sharing
information. During our audit, we noted that WestEd had developed and implemented written
policy and procedures on tracking and maintenance of cost sharing information. However, we
noted that WestEd did not maintain adequate supporting documentation for the cost sharing
expenditures of this NSF grant.

The management letter issued by WestEd’s independent auditor for fiscal years ended 11/30/02
and 11/30/01 also recommended that WestEd follow its procedures on procurement by
performing costs analysis and maintaining sole source justification or bidding documentation for
vendor selection.   During our audit, we noted that WestEd had developed and implemented
formal procurement procedures after the recommendation was made.
APPENDIX C – EXIT CONFERENCE
                                                                            APPENDIX C


EXIT CONFERENCE

We conducted an exit conference on November 30, 2007 at WestEd’s office in Los Alamitos,
California. We discussed preliminary findings and recommendations noted during the audit.
Representing WestEd were:

           Name                                Title

    xxxxxxxx xxxxxxxx     xxxxxxx xxxxxxxx x
    xxxxxxxx xxxxxxxx     xxxxxxxx xxxxxxxx




Representing Mayer Hoffman McCann P.C. – Conrad Government Services Division was:

           Name                        Title

    xxxxxxxx xxxxxxxx     xxxxxxxx xxxxxxxx
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

            Email Hotline
            oig@nsf.gov

            Telephone
           703-292-7100

             Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                  Mail
      Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
          Arlington, VA 22230
                  axc-R-h-n*onYa
     July 14,2008




     Mayer Hoffman McCann P.C
     Conrad Government Services Division
'.   2301 Dupont Drive, Suite 200
     Irvine, CA 92612




     Attached are our responses to the findings and recommendations included in the draft audit report
     covering National Science Foundation (NSE) award no. ESI-0119790, awarded to WestEd for the period
     September 1,2001 through June 30,2007 (REPORT).

     Also attached are our comments regarding the factual accuracy of the data and exhibits presented. One of
     the most glaring of the inaccuracies is that WestEd is not a private nonprofit corporation incorporated
     under the laws of the State of Washington, nor is it exempt from income taxes under Section 501(c)3 of
     the Internal Revenue Code as stated on page twenty-four of the REPORT.

     WestEd was established pursuant to the provisions of Title 1, Division 7, Chapter 5, Article I of the
     California Government Code (the Joint Powers Act) as a public agency for the joint exercise of powers
     between the Far West Regional Laboratory for Educational Research and Development (FWL) and the
     Southwest Regional Laboratory for Educational Research and Development (SWRL). The Internal
     Revenue Service has determined that WestEd is exempt from federal income taxes per Section 115(1) of
     the Internal Revenue Code.

     In addition, while the REPORT lists eight items of questioned costs in four findings, seven of these,
     totaling $22,796, fail to meet the OMB Circular A-133 normal threshold for reporting materiality
     ($10,000). We strongly object to the REPORT'S implication that these seven minor errors, which, even if
     taken as a whole, amount to less than two tenths of one percent (0.2%) of the total award amount
     represent "significant compliance and control deficiencies."

     Feel free to contact                                                                                        hould you have
     any questions.

     Sincerely,
                                                            .



                                                     d


                  4665 Lampson Avenue. Los Alamltos. Callfornla   -   90720-5139 1: 562 598 7661 1: 562 799 5124 w: www WestEd org
          National Science Foundation Award Number
                         ESI-0 119790



Management Response to Auditors' Findings and Recommendations
                                        WestEd
                      National Science Foundation Award Number
                                      ESI-0119790
              Management Response to Auditors' Findings and Recommendations

Audit Finding #l.Lack of Adequate Fiscal Monitoring of Subawardees

WestEd did not adequately monitor subaward costs charged to NSFAward No. ESI-0119790,
which included four subawards amounting to $6.7 million or 61% of the total costs charged to
the NSF award. This occurred because WestEd did not adequately implement the policies and
procedures that it established based on recommendations made in prior audit reports.
Therefore, WestEd's internal controls provide no assurance that the expenditures incurred and
claimed are accurate, valid, allowable and adequately documented. In order to validate the
subaward charges, we performed additional audit tests at 3 of the 4 subawardees. At 2
subawardees, we found overstated labor and indirect costs and misclassij?ed travel costs; as a
result, we questioned $15,130 in subaward costs. Required routine subaward monitoring could
prevent or identifi any additional unallowable claimed subaward costs.

WestEd Response

WestEd does not concur with the finding that the Agency has inadequately performed fiscal
monitoring of its subawardees. The Agency has implemented adequate policies and procedures
for subaward monitoring and it has performed the necessary fiscallprogram review procedures to
monitor its subawardees. Nonetheless, WestEd agrees with the questioned cost amounting to
$15,130.

WestEd's policies and procedures on subaward monitoring were designed to comply in all
material respects with OMB Circular A-133 guidelines. The procedures were put in place to
allow management and staff performing their assigned functions to prevent or detect
misstatements in a timely basis. However, even the tightest and most rigorous internal controls
have limitations and may occasionally fail to attain 100% accuracy.

The procedures implemented in fiscal year 2005 enabled WestEd to assess the risk of each
subawardee to be low, medium or high. Three of the four CAESL subawardees are large




The classifying of subawardees as having high, medium or low risk is a routine part of WestEd's
subawardee review process, and WestEd believes the effectiveness of WestEd's subawardee
monitoring during the CAESL project was never compromised. The on-site audit performed by
NSF auditors did not disclose systemic problems but merely brought to WestEd's attention a
few, isolated errors resulting in questioned costs of $15,130. Out of a total award of $12.7
million, this amounts to less than two tenths of one percent (0.2%) of the total award amount.
Furthermore, more than half of these questioned costs were identified by subawardee staff
(UCLA) before the NSF audit and were furnished to the NSF auditors during the on-site visit.
WestEd's subcontract monitoring procedures include not only fiscal monitoring performed by
accounting/contracts personnel but also the programmatic monitoring. WestEd's Principal
Investigator (PI) and Project Manager (PM) also participate in subcontract monitoring by
                                        WestEd
                      National Science Foundation Award Number
                                      ESI-0119790
              Management Response to Auditors' Findings and Recommendations

communicating regularly w               ardees to oversee the progress of ongoing work and to
review completed tasks. Th


a
                                        are responsible for reviewing and approvi
subawardees' invoices before processing for payment. The functions performed b
                                                                                   m
    provides WestEd a high level of assurance that the subawardees abide by the terms o t e
su agreement and payments are likewise being made in accordance with the terms of the
subagreement.

Attached are samples of the Pre-Award Questionnaire (Exhibit I), Sub-Award Initial Review and
Risk Assessment (Exhibit 2), and Result of Single-Audit letter (Exhibit 3).

WestEd has satisfactorily performed fiscal/program monitoring procedures on its subawardees
based on adopted and implemented policies and procedures and therefore disagrees that the
finding is a material weakness due to a significant deficiency in internal control over financial
reporting. WestEd believes that the subaward monitoring system is fully effective and does not
require improvement. However, we will continue to pursue our goal to attain 100% accuracy in
implementation.

Auditor's Recommendation on Finding #I

We recommend that NSF's Director of the Division ofInstitution andAward Support JDIAS)
ensure that WestEd a) strictly adhere to its subawardee$scal monitoring plan andprocedures;
b) apply its recently revised subawardee monitoringprocedures to all current and active
subawards, and c) ensure that all corrections made to expenses on UCLA 's and UCB 's
accounting systems for WestEd's subawards were accurately reported to WestEd and NSF.

WestEd Response

WestEd believes that it strictly adheres to its subawardee fiscal monitoring plan and procedures.
Further, we believe that our current implementation significantly reduces the likelihood of an
error to a very low probability. The questioned costs have been adjusted in WestEd's books.
Attached are documents to show that the amounts of $9,403 from UCLA (Exhibit 4) and $5,727
from UCB (Exhibit 5) have been deducted from subsequent invoices submitted.
                                                WestEd
                              National Science Foundation Award Number
                                              ESI-0119790
                      Management Response to Auditors' Findings and Recommendations

Audit Finding #2. Misclassification of Transactions

Although WestEd has developed formal policy and separate account codes to more consistently
distinguish different categories of costs, a breakdown in communication between program and
accounting personnel hindered its effectiveness. As a result, $24,250 of consultant costs and
$28,257 of travel costs that should have been classified as participant support costs were
erroneously recorded as consultant costs and travel costs. In addition, $9,419 of subaward costs
was miscoded as other direct costs. Since WestEd applied the indirect cost rate to these
misclassified costs and no indirect costs are allowable for participant support costs and the
amount exceeding the first $25,000 claimed by a subawardee, we questioned the associated
indirect costs claimed in a total amount of $7,562.

WestEd Response

WestEd strongly disagrees with the finding that WestEd did not effectively implement its
                     -   ~




poliiic, :11ic1 ~)roicclurc~
\!.tell1 clu? 1,) :I hrc:~hcl~)\\
                                       to L ' I ~ \ L I ~ C11i:lt
                                                            '
                                         11 ill c ~ ) ~ i i ~ i i ~ ~ i hct\\ i i : ~cc ti~)~i
                                                                                                       \.
                                                                  l)r~),jciti ~ ) \ t \:lrc ) r ~x) r I \ i l : ,el 111 11, : i i i ~ ) ~ ~ ~ i t i ~ i g
                                                                                                                                ~~cpinon~icl.
S c \ . c t ~ l i c I c <l\'c<tl..cl
                          ~.         :~cicpt,tlic rC'\ulti~igq ~ ~ c ~ t i ~i ~))~, t .i c: IcI ~ ~ C ) L I I 1,)~ ~ .I I ~.>~ )2.


The misclassified travel and consultant costs were costs incurred for participating in annual
CAESL conferences. This is an isolated case of misclassification and not an indication of
systemic problems in internal control. WestEd's internal controls are adequate, and the project
financial reports have not been materially misstated. The resulting questioned costs amount to
$7,562, which is less than one tenth of one percent of the total award.

Auditor's Recommendation on Finding #2

We recommend thatNSF7sDirector ofDIAS ensure that WestEd strengthen its procedures
governing communication between program and accounting personnel in order to ensure that
transactions are properly coded and classi$ed in its accounting system. Program personnel
should be required to explain suflciently the nature of the costs on each payment request
submitted to the accounting department to avoid miscoding errors. The accounting department
should not accept any payment requests without a detailed explanation for the expenses to be
paid.

WestEd Response

WestEd conducts continuing updates and training in policy communication, monitoring and
cross training among accounting and program personnel. We believe these continuing updates
and trainings are sufficient to strengthen a system that exhibits an already high degree of
compliance. The necessary adjustments have been recorded in WestEd's book of accounts when
the audit was still in progress.
                                        WestEd
                      National Science Foundation Award Number
                                      ESI-0119790
              Management Response to Auditors' Findings and Recommendations

Audit Finding #3. Insufficient Documentation to Support Cost Sharing Expenditures

Although WestEd has developed and been implementing its cost sharing policy andprocedures,
it was unable to obtain detailed documentation necessary to support its cost sharing contributed
by a thirdparty. Therefore, we questioned the entire $1,250,000 of cost sharing claimed by
WestEd, which resulted in our questioning $988,806 ofNSF-funded costs, which represents costs
exceeding NSF'sproportionate share of the total project costs.

WestEd Response

WestEd strongly disagrees with the finding and recommendation and questioned cost in the
amount of $988,806.

First, WestEd believes that the auditor misapplied OMB Circulars A-133 and A-110 regulations
                                                                                          -
with respect to obtaining detailed document%ion to support cost sharing contributed by a third
                                                        is an American multinational corporation

         m
Party
with a focus on desi ning and manuracruring consumer electronics and closely related software
products.               is a publicly traded for-profit company, and qualifies as a vendor that is
not subject to the criteria identified in 2 CFR 2 15, Subpart C, S2 15.23 (OMB Circular A- 110).
The auditor applied the criteria as if Apple, Inc. were classified as a subrecipient. However,

          mR
WestEd believes th
criteria described by
                                     is unquestionably a vendor in accordance with the applicable
                                 ircular A-133 Subpart B section 210(a)-(f), which describes the
pass-through entities' responsibilities with respect to vendors, and with which WestEd complies
in all material respects. Therefore, WestEd believes the rules on documentation being cited by
the auditor are applied incorrectly.

Second, in the original proposal to NSF, WestEd described th                 had committed to
provide CAESL with, "technical consultation in the planning                  technology tools;
travel and meeting support; a mobile computer training lab; a webhosting and webcasting
environment; and dissemination." The provisioning of a webcasting environment was a
significant task. CAESL wanted to develop a web-based, interactive, database-driven site that
could handle streaming video and other forms of multimedia. Although streaming video content
on the web has become commonplace toda               1 it was a technology in its infancy and there
were no appropriate tools readily available.        developed the technology with an
                          system to allow users to
hosted site.                   the technology and made it
                                   for WestEdICAESL) to become
                                  had to develop the
excess of $1,000,000.

In addition to this major technological contribution, over the course of the gran
             - - technical support and advice on CAESL's web-based
provided ongoing               A   A



support for web-based products with streamin            video, and access to online editing and
publishing software to a u t h o m x h i b i t s .        advised and helped in the production of
                                         WestEd
                       National Science Foundation Award Number
                                       ESI-0119790
               Management Response to Auditors' Findings and Recommendations

technical products and provided training for staff members work                   oduction and
                                                                                  technical staff at
thei                         ce-to-face consultations about the CAESL project and to see
                             thought might be helpful for the project. To support dissemination
                              rovided free affiliate membership of the ALI
                                            which we continue to do (Exhibit 6)
                     served as an advisor to CAESL, attended our annual
                                                    and advice on the technical and educational
                                                   contributed to the costs of our annual
conferences.

                      bservable results that are corroborated by the NSF program officer the
value o                cost share contribution is justified, properly documented, and
                               by NSF Management.

Third, in the original proposal budget, WestEd showed a projected total cost share over the life
of the grant of $2,368,194. That figure included both the $1,118,194 in cost sharing that would
be in the form of time offered free of charge from the facult at the three educational institutions
serving as subawardees as well as the $1,250,000 tha
          the grant on November 15, 2001, after discussions e ween
           estEd was informed that there would no
contribution of the university partners and that it was sufficient to rely o;              t share
contribution. This is documented in the grant amendment issued bv NS o es
November 15,2001 (Exhibit 8). Thereafter, WestEd did not document any of the $1,118,194
contribution that took place over the life of the grant. Should it be necessary, WestEd is willing
to retroactively obtain documentation for the contributions.

WestEd strongly contends that the auditor's basis for the questioned cost is factually inaccurate.

Auditor's Recommendation on Finding #3.

We recommend that NSF's Director ofDIAS ensure that WestEd amend its current cost sharing
policy to require written documentation quantifiing and determining the value andpurpose of
thirdparty contributions. WestEd should obtain the basis for determining the valuation of the
contributedpersonal services, material, and equipment from all third party donors.

WestEd Response

WestEd believes the current system for documenting cost sharing complies with applicable
regulations and, therefore, any amendment to these procedures would be redundant, unduly
costly to WestEd, and of no further internal control benefit.
                                          WestEd
                        National Science Foundation Award Number
                                       ESI-0119790
               Management Response to Auditors' Findings and Recommendations

 Audit Finding #4. Unallowable Sales Tax Associated with Alcoholic Beverages

 WestEd has policies and procedures to review all travel expenses claimed and t o exclude the
                         - "from federal funds. However, the reviewer did not always exclude the
 costs o f alcohol beverazes
 sales tax associated with costs of alcoholic beverages from the total costs claimed to
 result, we questione s a l e s tax associated with costs of alcoholic beverages an
 associated indirect costs.

 WestEd Response

  OMB Circular A-122 does not disallow sales tax. The Circular is silent on the issue of sales tax
  on alcoholic beverages. In addition, the incidents discovered by the auditor are insignificant and
  pursuant to OMB Circular A-133, there does not appear to be either a reportable internal control
  or a compliance deviation with this finding. Nonetheless, the questioned costs amounting to
a         s been adjusted in WestEd's books of account.

 Auditor's Recommendation on Finding #4

 We recommend that NSF's Director ofDIAS ensure that WestEd's policy and procedures
 explicitly state that all costs, including sales tax, associated with alcoholic beverages are
 unallowable and therefore not to be charged to a federal award.

 WestEd Response

 WestEd will add an instruction to its related procedure and supervision documents to explicitly
 state and test for the exclusion of sales tax on alcoholic beverages from federal claims for
 reimbursement.
                                            WestEd
                          National Science Foundation Award Number
                                          ESI-0119790
                  Management Response to Auditors' Findings and Recommendations


    Comments Regarding the Factual Accuracy of the Data Presented

        Page Reference and Description of
                  Misstatement                                    Accurate Statement

                         only identified the
                        as the key person
                                subaward fiscal       and collecting the Pre-Award
    monitoring                                    1   Questionnaire.
                                                  I

1            th
    Page 5, 7 paragraph incorrectly states that
                       letter is sent by the          responsible for sending and collecting the
                      to each subawardee              subawardees' certification of the results of
                           to certify if it has       the Single Audit
    completed an OMB-A133 Single Audit
                                                  I
    Page 24, Note 1 on Income Taxes                   WestEd was established pursuant to the
    incorrectly states that WestEd is a private       provisions of Title 1, Division 7, Chapter 5,
    nonprofit corporation, incorporated under         Article I of the California Government
    the laws of the State of Washington.              Code (the Joint Powers Act) as a public
    WestEd is exempt from income taxes under          agency for the joint exercise of powers
    Section 501(c)3 of the Internal Revenue           between the Far West Regional Laboratory
    Code.                                             for Educational Research and Development
                                                      (FWL) and the Southwest Regional
                                                      Laboratory for Educational Research and
                                                      Development (SWRL). The Internal
                                                      Revenue Service has determined that
                                                      WestEd is exempt from federal income
                                                      taxes per Section 115(1) of the Internal
                                                      Revenue Code.

    Appendix B Prior Audit Findings, 2"*              The management letter for the fiscal year
    paragraph incorrectly states that a               ended 11/30/02 indicated that policies and
    management letter issued by WestEd's              procedures were not established to evaluate
    independent auditor for fiscal year ended         if subcontractors utilized in federal
    11/30/02 annual audit indicated that              programs were subrecipients defined under
    WestEd needed to develop policy and               OMB Circular A- 133 Section ,210 or
    procedures to identify subrecipients for          vendors.
    monitoring.
                                        WestEd
                      National Science Foundation Award Number
                                     ESI-0119790
             Management Response to Auditors' Findings and Recommendations


    Page Reference and Description of
              Misstatement                              Accurate Statement

Appendix B Prior Audit Findings, 31d        The management letter for the fiscal year
paragraph incorrectly states that the       ended 11/30/04 stated that "WestEd
management letter issued by WestEd's        requires that each award requirement be
independent auditor for fiscal year ended   summarized on a "Contract Summary
11/30/04 also recommended that WestEd       Worksheet". During our review of selected
enhance its procedures for maintaining cost contract summaries we noted that the
sharing information.                        following information was missing. 1. Cost
                                            share requirements for projects 4106 and
                                            3907 were not summarized on the Contract
                                            Summary Sheet". (Note - The auditor
                                            merely cited the cost share requirements as
                                            one example of a special requirement that
                                            the Contracts Administration should
                                            document on the Contract Summary
                                            Worksheet. The comment did not address
                                            procedures for maintaining cost sharing
National Science Foundation Award Number
               ESI-0 119790



              EXHIBITS
                                   WestEd                                                 Exhibit I
                            Pre-Award Questionnaire

/ Subcontractor 1                                                                               1
1 Subcontract # 1                                                                               1
1 Start Date        1
/ End Date          1                                                                           1
 Instructions to Preparer:

 This questionnaire is designed to enable WestEd to determine whether the potential
 subgrantee has fiscal and personnel procedures in place that co~nplywith the regulations;
 bas staff capable of delivering the services ecotlo~nicallyand efficiently; and has internal
 controls in place to assure that award assets will be properly safeguarded.

 Responses may be yes, no, or not applicable, or may require specific information.
 Please provide brief explanations as deemed necessary.
 General
 1.    Indicate the corporate nature of the organization:
       a.    501 (c)
                  . . (3)
                       . .
       b.    Govern~nentalentity
       c.    For-profit entity
       d. Other NPO
                                                                          I
 2.    Are the IRS returns being filed in a timely manner?
                                                                          I
 3.    Are there any outstanding IRS or payroll tax issues?

 4. Are there any major legal issues affecting the organization? If
       yes, briefly explain. (Add attachment if necessary.)

 5.    Does the appropriate staff understand the program requirenlents
       and are they familiar with program regulations and the OMB
       Circulars?

 6.    Indicate the result of the most recent A-133 audit:
       a.   Clean audit - no findings or questioned costs
       b. Minor findings, no questioned costs
       c.   Material findings, questioned costs
       (Submit a copy of the no st recent audited financial statements)

 7.    Has a managenlent letter been issued? If yes, submit a copy.
                                                                          I
 8.    I-lave any of the subrecipient's progratnsiprojects been audited
       in the last 2 years? If yes, submit copy of audit report.
                                                                                                    1
                                     WestEd
                              Pre-Award Questionnaire


1 Policies and Procedures                                                              I
 1.   Arc thcre written policies and procedurcs on cost allocation?

 2.   Is there an approved indirect cost rate agreement? If yes,
      submit a copy.
 3.   Are there written procedures on cash inai~agement?

 3.   Are there written procedures on procureinent and acquisition of
      property?

 4.   Are there written procedures on property management and
      disposal of property?

 5.   Are there written financial procedures?
                                                                                       I
 6.   Are there writtell persoililel policies and procedures?

 7.   Are there written policies and procedures on staildards of
      conduct, nepotism, and conflict of interest for governing board
      and employees?

 8.   Are there written procedures on contract adtninistration?

 9.   Does the geileral ledgcr system allow for an ongoing
      comparison of budget to actual expenditures for your contract?
                                                                                       I
 10. Is tllcrc adequate insurance coverage?

 11. Do the finailcia1 procedures allow for adequate segregation of
     duties?




 Signature           x
                         By sigiiing, I certify that, to the best of lily knowledge, the responses lo tlic
                                                questiontiaire are true and col-rect.
 Prepared By

                 8

 Date Prepared
 WestEd
 Sub-Award Initial Review & Risk Assessment
 Subgalltee Name
 Sub-Award Number
 Cost Code Nuinber
 Sub-Award Ainouilt
 Period of Perforinance
   Stai-t Date
 Period of Performance    1
   End Date
 Prepared By1
   Date Prepared


 Instructions to Preparer

 Attach this sheet to the coinpleted Pre-Award Questionnaire. Based
 on the respoilses to the questionnaire, document your obsetvatiotls
 and recominendatiotls.

1 Cotnplete the Risk Assessment section.                               I   I
 Observations and Recornrnendations for Desk and On-Site Reviews
                                                                                      Exhibit 2.1
WestEd
Sub-Award Initial Review & Risk Assessment



findings, experienced service provider, small contract, well-trained
staff, positive relationship, and excellent history of perforn~anceand
financial stability
Medium Risk - OMB Circular A-133 audit, some findings in the
past, large contract, change in staff, new or relatively new grantee,
and somewhat less than excellent history of performance and
financial stability
High Risk - No audit or OMB Circular A-133 audit with material
findings, pass-through entity concerns, large contract, new grantee,
major staff turnover, and less than excellent history of perfor~uance
and financial stability
Risk Assessment Done By / Date


Based on the risk assessment results, the following course of action will be taken:
Low Risk - no further action; Medirlrn Risk - perform desk review; High Risk -
perform site visit
                                                                                                                  Exhibit 3
                                                                                                           Date

Subcontractor
Attention: Name
Title
Addrcss
City, State, Zip
Phone

Re: Project
WestEd #: Cost Code and Subcontract # (list niult~pleif org has subcontracts u~idcrsevel-al contracts)

Dear Mr.lMs.1Dr. Name:

Our records indicate that your organizatio~lwas a subrecipient of federal funds awarded to WestEd during
tlie fiscal year ending November 30,2006. OMB Circular A-133, Audits of States, Local Government &
Nonprofit Organizations, requires us to ensure that your organizatioli is in compliance with the
require~iientsof OMB Circular A-133. Accordingly, ptease check the appropriate boxes and mail back to
us together with any required docunietits:

1 . 0 We have not yet completed tlie A-133 single audit for fiscal year 2006. We expect the audit to be
cotiipleted by                                                  , Upon completion, we will notify you in
writing. If liiaterial findings are repolled related to the sub-award from WestEd, we will send a copy of the
audit report and corrective action plan.

2 . 0 We liave completed the A-133 single audit for fiscal yeai 2006. There are 110 tnaterial weaknesses, no
material instances of ~ionco~~iplianceand no findi~igsrelated to the sub-award from WestEd. Therefore, we
are not enclosing a copy of the report.

3 . 0 We have completed the A-133 single audit for fiscal year 2006. Material weaknesses, ~iiaterial
instances ofnonconipliance or findiugs related to the WestEd's sub-award to us were noted. Enclosed is a
copy of tlie audit report and our response.

4 . 0 We are not subject to tlie provisio~isof A-133 because our orgauizatio~i:
                  ( ) is for profit
                  ( ) expended less than $300,000 in Federal funds in fiscal year2006
                  ( ) other (explain)

I certify that the boxes checked above are appropriate for the o~.ganizationI represent. In addition, I certify
that all relevaill nlaterial findings in tlie audit report have been disclosed.



Print Na~iie& Title:

We appreciate your response by Date. If you have any questions, please feel free to coutact 11ic at
415.615.3294 or via etiiail at vtinio@wested.org.

Sincerely,
                                                                       79331/NMC/P2
                       THE REGENTS OF THE UNIVERSITY OF CALIFORNIA
                                                                                      Exhibit 4
                          UNIVERSITY OF CALIFORNIA, LOS ANGELES
                                       Invoice No. 31
                                         11/30/2007

WestEd                                                Contract/Agreement/P.O. NO.
Steve Schneider                                       01093264
400 Seaport Court, Ste 222                            Dated 09/18/2002
Redwood City, CA 94063
                                                                        79331lNMCIP2
                       THE REGENTS OF THE UNIVERSITY OF CALIFORNIA
                          UNIVERSITYOF CALIFORNIA, LOS ANGELES
                                       Invoice No. 32
                                                                                       Exhibit 4.1
                                         01117/-n0    -

WestEd                                                   tractlAgreementlP.0. NO.
Sleve Schneider
400 Seaport Court, Ste 222
Redwood City, CA 94063
                                                  y3:z1        8/2002
                             Exhibit 5




Addressee   UCB Form 3000A
                                                                                                                                                                     Exhibit 5.1
                     -
Business Unit: 1 UC Berkeley                                                                     GL SUM MONTHLY EXPENSE
                                                                                                     S u m m q by Fund
                                                                                                                                                                   Page I of I
As of: January 2008                                                                                                                                                Run Date: 06126108
                                                                                                                                                                   Run Time: 15:50:21
Selection Criteria: Acct: 5 I Fund: 79788 1 Org: I Pgm: I Flex: I Project:
Org LZ Node I Org W Node Org L4 Node I Org L5 Node I Org L6 Node
FoonA 17 N+de I Fund L3 Node I Fund L4 Node I Fund L5 Node




Notel: The 'Prior Year Actualst column reRects expenses incurred in prior fiscal years for contract 8 grant funds. For other funds, this column will contain $0.
Note2: The 'Balance' in this report does NOT indude mmmitments (encumbrances & pre-enarmbrances).                                                                         -
 B     u      s       C Berkeley                                             CURRENT ACTlVlN DETAIL                               Paae 1 of 1
 Fi                                                                                         By Fund                               R U Date:
                                                                                                                                       ~    06126108
 M                                                                                                                                Run Time: 15:44:31
 s e ~ e d        e        I Fund Coda 79788 10rg Coda I Pmgrarn Code I Project No IFlBxfleld
 Org L2 N,        lode I Org L4 Node I Org L5 Node I Org L6 Node IAcct LZ Node: EXPENSES I Acct W Node:   IAcct L4 Node:

                               De artmsnt Desc.                    Date      Doc Id          Reference
               "'-.4106-BARBER-08/08


                                                                    11130107 PAY0412247      13% REG




                                                                    11130107 PAY0412247      0% REO
                                                                    10/31107 PAY0412247      6.24 H VAC




                                                                   11101107 BEGINNING
                                                                   11130107 TELM12172




TOTAL INDIRECTCOSTS                                                                                                        0.00


                    -
'TOTAL FOR FUND 79788 WE-4106-BARBER48108
